No. 19In the

Supreme Court of the United States
PENNYMAC FINANCIAL SERVICES, INC.,
PRIVATE NATIONAL MORTGAGE ACCEPTANCE
COMPANY, LLC., AND PENNYMAC MORTGAGE
INVESTMENT TRUST,
Petitioners,
v.
RICHARD SMIGELSKI,
Respondent.
On Petition for a Writ of Certiorari to the California
Court of A ppeal Third A ppellate District

PETITION FOR A WRIT OF CERTIORARI
James A. Bowles
Counsel of Record
Michael S. Turner
E. Sean McLoughlin
Warren J. Higgins
Hill, Farrer & Burrill LLP
One California Plaza
300 South Grand Avenue
Los Angeles, California 90071
(213) 620-0460
jbowles@hillfarrer.com
Counsel for Petitioners
289655

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the Federal Arbitration Act preempts a statelaw rule that prohibits the enforcement of an arbitration
agreement in a dispute covered by that agreement unless
the State consents, based on the fiction that the State is a
party to the lawsuit, when in fact it is not.

ii
PARTIES TO THE PROCEEDING BELOW
The case caption contains the names of all parties
who were parties in the California Court of Appeal and
California Supreme Court. The State of California is not
and never has been a party to this litigation.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, Petitioners
state that PennyMac Financial Services, Inc. (NYSE:
PFSI) and PennyMac Mortgage Investment Trust (NYSE:
PMT) are publicly held. BlackRock, Inc. currently owns
more than 10% of the shares of both PennyMac Financial
Services, Inc. and PennyMac Mortgage Investment Trust.
Private National Mortgage Acceptance Company, LLC
has two parent companies that each own more than a 10%
membership intererest: PNMAC Holdings, Inc. (not a
party) and Petitioner PennyMac Financial Services, Inc.

iv
RELATED CASES
1. Erich Heidrich, et al v. Pennymac Financial
Services, Inc., et al., 2:16-cv-02821-TLN-EFB (E.D. Cal)
(FLSA claim compelled to arbitration and dismissed, and
state law claims dismissed without prejudice on July 11,
2018) (slip opinion reported at 2018 WL 3388458).
2. Erich Heidrich, et al v. Pennymac Financial
Services, Inc., et al., 18-16494 (9 th Cir.)(appeal pending,
no judgment entered).

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW  . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 7
California’s Labor Code Private Attorney General
Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
FACTUAL BACKGROUND  . . . . . . . . . . . . . . . . . . . . . . 9
The Smigelski State Court Action . . . . . . . . . . . . . . . . 9

vi
Table of Contents
Page
The Related Heidrich Federal Court Action &
Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR GRANTING REVIEW  . . . . . . . . . . 11
A. The Decision Below Conflicts With The FAA
And Defies This Court’s Precedents . . . . . . . . . 16
B. The Decision Below Is Exceptionally
Important  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
1.

This issue arises with great frequency . . . 25

2.

There is a square conflict between the
ruling below and decisions on the very
same legal issue by the federal courts
in California - a conflict that produces
significant unfairness to litigants, such
as Petitioners, that are unable to remove
cases from state to federal court . . . . . . . . 26

3.

This Court’s intervention also will
make clear that lower courts may not
invalidate arbitration agreements
in contravention of the FA A and
this Court’s precedents . . . . . . . . . . . . . . . . 31

4.

Summary reversal or remand would
also be appropriate in this case  . . . . . . . . . 34

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

vii
TABLE OF APPENDICES
Page
APPENDIX A — DENIAL OF PETITION FOR
REVIEW BY THE SUPREME COURT OF
CALIFORNIA, FILED APRIL 10, 2019  . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
COURT OF A PPEA L OF THE STATE
OF CALIFORNIA, THIRD APPELLATE
DI S T R IC T (S ACR A M EN T O), F I L ED
DECEMBER 19, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 2a
APPENDIX C — MINUTE ORDER OF THE
SUPERIOR COURT OF CALIFORNIA,
COUNT Y OF SACRA MENTO,
DATED APRIL 22, 2016  . . . . . . . . . . . . . . . . . . . . . 38a
APPENDIX D — MINUTE ORDER OF THE
SUPERIOR COURT OF CALIFORNIA,
COUNT Y OF SACR A MENTO, DATED
APRIL 22, 2016  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48a
APPENDIX E — MINUTE ORDER OF THE
SUPERIOR COURT OF CALIFORNIA,
COUNT Y OF SACR A MENTO, DATED
MARCH 3, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011)  . . . . . . . . . . . . . . . . . . . . . . . passim
Betancourt v. Prudential Overall Supply,
9 Cal. App. 5th 439 (2017) . . . . . . . . . . . . . . . . 15, 29, 30
Bui v. Northrop Grumman Sys. Corp.,
No. 15-CV-1397-WQH-WVG, 2015 WL 8492502
(S.D. Cal. 2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 28
CarMax Auto Superstores California, LLC v.
Fowler,
134 S. Ct. 1277, 188 L. Ed. 2d 290 (2014) . . . . . . 16, 35
Circuit City Stores, Inc. v. Adams,
532 U.S. 105 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Citizens Bank v. Alafabco, Inc.,
539 U.S. 52 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463, 193 L. Ed. 2d 365 (2015) . . . . . . passim
Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . 12, 18

ix
Cited Authorities
Page
EEOC v. Waffle House, Inc.,
534 U.S. 279 (2002) . . . . . . . . . . . . . . . . . . . . . 18, 20, 21
Epic Systems v. Lewis,
138 S. Ct 1612, 200 L. Ed. 2d 889 (2018)  . . . . . passim
Esparza v. KS Industries, L.P.,
13 Cal. App. 5th 1228 (2019) . . . . . . . . . . . . . . . . . . . . 30
Ferguson v. Corinthian Colleges, Inc.,
733 F.3d 928 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 30
Galvan v. Michael Kors USA Holdings, Inc.,
2017 WL 253985 (C.D. Cal. 2017)  . . . . . . . . . . . . 14, 28
Heidrich v. PennyMac Financial Services, Inc.,
2018 WL 3388458 (July 11, 2018)  . . . . . .  10, 11, 15, 31
Hernandez v. DMSI Staffing, LLC.,
79 F. Supp. 3d 1054 (N.D. Cal. 2015), aff’d sub
nom. Hernandez v. DMSI Staffing, LLC,
677 F. App’x 359 (9th Cir. 2017) . . . . . . . . . . . . . . 14, 28
Iskanian v. CLS Transp. Los Angeles, LLC,
59 Cal. 4th 348 (2014)  . . . . . . . . . . . . . . . 262, 27, 28, 29
Julian v. Glenair, Inc.,
17 Cal. App. 5th 853 (2017) . . . . . . . . . . . . . . . 15, 29, 30

x
Cited Authorities
Page
Kindred Nursing Centers Ltd. P’ship v. Clark,
137 S. Ct. 1421, 197 L. Ed. 2d 806 (2017) . . . . . passim
KPMG LLP v. Cocchi,
565 U.S. 18 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Marmet Health Care Center, Inc. v. Brown,
565 U.S. 530 (2012) . . . . . . . . . . . . . . . . . . . . . . . . 16, 32
Net2Phone, Inc. v. Superior Court,
109 Cal. App. 4th 583 (2003)  . . . . . . . . . . . . . . . . . . . 23
Nitro-Lift Technologies, L.L.C. v. Howard,
568 U.S. 17 (2012)  . . . . . . . . . . . . . . . . . . . . . . 12, 16, 32
Perry v. Thomas,
482 U.S. 483 (1987) . . . . . . . . . . . . . . . . . . . . . . . passim
Poublon v. C.H. Robinson Co.,
846 F.3d 1251 (9th Cir. 2017) . . . . . . . . . . . . . . . . 14, 27
Preston v. Ferrer,
552 U.S. 346 (2008) . . . . . . . . . . . . . . . . . . . . .  12, 17, 21
Ridgeway v.
Nabors Completion & Prod. Serv. Co.,
725 F. App’x 472 (9th Cir. 2018) . . . . . . . . . . . . . . 14, 27
Ritz-Carlton Development Co. v. Narayan,
136 S. Ct. 799 (2016)  . . . . . . . . . . . . . . . . . . . . . . .  34-35

xi
Cited Authorities
Page
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) . . . . . . . . . . . . . . . 14, 27, 28
Schumacher Homes of Circleville, Inc. v.
Spencer,
136 S. Ct. 1157 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 34
Sonic-Calabasas A, Inc. v. Moreno,
565 U.S. 973 (2011)  . . . . . . . . . . . . . . . . . . . . . . . .  16, 17
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
Tanguilig v. Bloomingdales,
5 Cal. App. 5th 665 (2016) . . . . . . . . . . . . . . . . 15, 29, 30
United States ex rel. Einstein v.
City of New York,
556 U.S. 928 (2009) . . . . . . . . . . . . . . . . . . . . . . . . 20, 21
Valdez v. Terminix Int’l Co. Ltd. P’ship,
681 F. App’x 592 (9th Cir. 2017) . . . . . . . . 14, 27, 28, 29
Villacres v. ABM Indus. Inc.,
189 Cal. App. 4th 562 (2010) . . . . . . . . . . . . . . . . . 22, 23
Wulfe v. Valero Ref. Co.-Cal.,
641 F. App’x 758 (9th Cir. 2016) . . . . . . . . . . . . . . 14, 27

xii
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES
Article VI, Clause II, of the United States
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
9 U.S.C. § 1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
9 U.S.C. § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 18
15 U.S.C. § 1226(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Cal. Gov. Code § 12652 . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Cal. Lab. Code § 98  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Cal. Lab. Code § 229  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Cal. Lab. Code § 2699  . . . . . . . . . . . . . . . . . . . . . . . passim
Cal. Lab. Code § 2699(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Cal. Lab. Code § 2699(f)(2) . . . . . . . . . . . . . . . . . . . . . . . . 8
Cal. Lab. Code § 2699(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . 8
Cal. Lab. Code § 2699(i) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Cal. Lab. Code § 2699.3(a) . . . . . . . . . . . . . . . . . . . . . . . . . 8

xiii
Cited Authorities
Page
Cal. Lab. Code § 2699.3(a)(2) . . . . . . . . . . . . . . . . . . . . . . . 8
Cal. Lab. Code § 2699.6 . . . . . . . . . . . . . . . . . . . . . . . . . . 24
FAA § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Sup. Ct. R. 13  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Black’s Law Dictionary (8th ed. 2004) . . . . . . . . . . . . . 21
C a l . D ept ’t I ndu s . R e l at ion s 2 016 / 2 017
Budget Change Proposal, Budget Request
No. 7350-003-BCP-DP2016-GB  . . . . . . . . . . . . . . 8, 26
Ceilidh Gao, What’s Next for Forced Arbitration?
Where We Go After SCOTUS Decision in Epic
Systems, Nat’l Emp. L. Project (June 5, 2018) .  33-34
J a n e t C o o p e r A l e x a n d e r, To S k i n A
C a t : Q u i Ta m A c t i o n s A s A S t a t e
L e g i s l a tiv e R e s p o n s e t o C onc ep c ion ,
46 U. Mich. J.L. Reform (2013) . . . . . . . . . . . . . . . . . 33
Matthew J. Goodman, The Private Attorney
General Act: How to Manage the Unmanageable,
56 Santa Clara L. Rev. 413 (2016) . . . . . . . . . . . .  25-26

1
Petitioners Private National Mortgage Acceptance
Company, LLC, PennyMac Financial Services, Inc. and
PennyMac Mortgage Investment Trust respectfully
petition for a writ of certiorari to review the judgment
and opinion of the Court of Appeal of California, Third
Appellate District, filed on December 19, 2018.
OPINIONS BELOW
The opinion of the California Court of Appeal, Third
Appellate District, Appendix B at 2a – 37a, is unreported.
The summary order of the California Supreme Court
denying PennyMac’s petition for review, Appendix A at 1a,
is unreported. The Sacramento County Superior Court’s
orders denying PennyMac’s petitions to compel arbitration
and seeking reconsideration, Appendices C, D and E at
38a – 62a, are unreported.
JURISDICTION
The opinion of the California Court of Appeal
was entered on December 19, 2018. Appendix B at 2a.
PennyMac timely petitioned for review by the California
Supreme Court on January 28, 2019, which was denied
on April 10, 2019. Appendix A at 1a. Thus, the California
Supreme Court entered its final judgment on April 10,
2019. Pursuant to Supreme Court Rule 13, this petition
became due on July 9, 2019. This Court has jurisdiction
pursuant to 28 U.S.C. § 1257(a). Perry v. Thomas, 482
U.S. 483, 489 n. 7 (1987).

2
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
Article VI, clause ii, of the United States Constitution
provides:
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all Treaties
made, or which shall be made, under the Authority of the
United States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.
Title 9, Section 2 of the United States Code provides:
A written provision in any maritime transaction or a
contract evidencing a transaction involving commerce to
settle by arbitration a controversy thereafter arising out
of such contract or transaction, or the refusal to perform
the whole or any part thereof, or an agreement in writing
to submit to arbitration an existing controversy arising out
of such a contract, transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such grounds as
exist at law or in equity for the revocation of any contract.
INTRODUCTION
State legislatures and courts have a history of
attempting to evade the Federal Arbitration Act (“FAA”),
and California has led the field. In this case, a California
Court of Appeal again ignored this Court’s decisions by
creating a rule that an employee’s arbitration agreement
with his employer will not be enforced in an action by the

3
employee for penalties authorized under California Labor
Code section 2699. This rule is based on the fiction that
the State is the “real party in interest” and therefore
must consent to arbitration. But this Court has repeatedly
instructed that the FAA preempts state-law rules that
prohibit or obstruct the enforcement of valid arbitration
agreements, or that prohibit outright the arbitration
of a particular type of claim. This case presents the
straightforward question whether the FAA preempts such
a state-law rule.
In stark contrast to the California Court of Appeal
whose decision is the subject of this petition, a District
Court in California applied this Court’s recent decisions
to the very same arbitration agreement in a related,
substantially identical lawsuit filed against Petitioners
by three other employees represented by Respondent’s
counsel. The District Court determined that the FAA
and this Court’s precedents required the agreement to
be enforced as written, notwithstanding the arguments
that the agreement contained a class and representative
action waiver made illegal by California law and therefore
was invalid in its entirety. The fundamental unfairness of
identical facts leading to opposite outcomes depending
solely upon the forum selected is self-evident. Left
undisturbed, however, the State Court of Appeal decision
now threatens to undo the District Court’s decision,
as Respondent’s counsel seeks to invoke the collateral
estoppel doctrine in that related case.
The Court of Appeal refused to enforce an arbitration
agreement entered into by an employee who later filed a
civil action against his former employer seeking monetary
penalties under California’s Labor Code for alleged wage

4
and hour violations. The statute under which the action
was filed – the California Labor Code Private Attorney
General Act, California Labor Code § 2699 et seq.
(“PAGA”) – does not expressly require a judicial forum,
and does not give the State any role in the prosecution of
the civil action once it is filed by an employee against his
employer. It mandates only that if monetary penalties are
recovered, they be shared with the State.
The Cour t of Appeal prohibited outr ight the
arbitration of PAGA claims any time the agreement to
arbitrate predates the lawsuit, stating: “any predispute
agreement to arbitrate individual PAGA claims was
ineffective.” Appendix B at 27a. To justify its refusal
to enforce the arbitration agreement, the Court of
Appeal relied on the fiction that the State was a party
to the lawsuit, even though the State plays no role in the
filing or prosecution of the case. The Court of Appeal
held that the employee’s arbitration agreement could
not be enforced, because at the time of the employee’s
agreement, the State had not authorized the employee to
pursue the State’s interest in any potential civil action,
stating: “Smigelski executed the employee agreement as
a condition of his employment in November 2014, before
he satisfied the statutory requirements for bringing a
PAGA claim, which occurred sometime in October 2015.
[] Prior to the time he satisfied those requirements,
Smigelski was not authorized to asssert a PAGA claim
as an agent of the state, which retained control of the
right underlying the claim. [] Because Smigelski entered
the arbitration agreement as an individual, and not as an
agent or representative of the state, the agreement cannot
encompass the PAGA claim, which relies on the right to
recover penalties then belonging to the state. [] It follows

5
that any predispute agreement to arbitrate individual
PAGA claims was ineffective.” Appendix B, 26a – 27a
[internal citations omitted.]
Underpinning the Court of Appeal’s refusal to enforce
the employee’s arbitration agreement is the utter fallacy
that the State is the real party in the PAGA action and the
equally false notion that the employee bringing the PAGA
lawsuit is not really a party. By this transparent ruse,
the Court of Appeal evaded the FAA’s requirement that
the employee’s arbitration agreement should be enforced.
This judicial shell game designed to avoid arbitration of
PAGA claims should not be countenanced by this Court.
The reality is that the State is not in any meaningful
way a party in a PAGA action. The State plays no role in
the prosecution, dismissal or settlement of the lawsuit.
By contrast, the employee signatory to the arbitration
agreement has all the attributes of a party-plaintiff:
(1) the employee files the PAGA action as the named
plaintiff; (2) the employee prosecutes the lawsuit;
(3) the employee makes all decisions regarding the action;
(4) the employee can settle the action; (5) the employee can
dismiss the case; (6) the employee can decide not to file
the PAGA action; (7) the employee obtains any monetary
judgment and retains 25% of the penalties; and (8) the
employee is awarded attorneys’ fees if he prevails in the
action.
The Court of Appeal’s decision is directly contrary
to the FAA and decisions of this Court that prohibit
such state anti-arbitration rulemaking for the following
reasons: First, the decision is contrary to the primary
purpose of the FAA to ensure that private arbitration
agreements are vigorously enforced according to their

6
terms. Second, the decision prohibits enforcement of
and erects barriers to the enforcement of arbitration
agreements covered by the FAA by transmuting standard
administrative exhaustion requirements into special
agency requirements that disfavor arbitration. Third, the
decision places arbitration agreements on unequal footing
with other contracts by requiring the State’s consent as a
condition for enforcing the arbitration agreement against
the claim asserted by the signatory employee who is the
only named plaintiff.
The Court of Appeal’s decision is also contrary to
the decisions of the Ninth Circuit Court of Appeals and
numerous federal district courts in California, which have
held that PAGA claims are not exempt from arbitration.
Instead, the federal cases hold that PAGA claims are
subject to arbitration, because an outright prohibition on
arbitrating PAGA claims is preempted by the FAA. Thus,
the enforceability of employment arbitration agreements
in California PAGA cases depends entirely on whether the
case is filed in, or can be removed to, federal court.
This is no hypothetical concern – the arbitration
ag reement at the heart of this case was refused
enforcement and declared invalid in its entirety by a
California Court of Appeal based solely on California’s
judicially created rule in PAGA cases, while the very
same agreement was enforced by a District Court to
compel bilateral arbitration of federal wage and hour
claims in a related case alleging identical State law wage
and hour claims (including PAGA). Different forums;
opposite results. No law of the land can function in such
an environment.

7
The question presented is immensely important,
because employees and employers throughout California
routinely agree to arbitrate their employment-related
disputes at the outset of the employment relationship.
The rule invoked by the Court of Appeal will invalidate
countless arbitration agreements covered by the FAA as
applied to PAGA claims in California. This Court’s review
is therefore essential.
Given the failure of the lower court to heed this Court’s
repeated instructions that the FAA does not permit states
to prohibit arbitration of particular claims and requires
arbitration agreements to be placed on equal footing with
other contracts, the Court may wish to consider summary
reversal or vacatur for reconsideration in light of Epic
Systems v. Lewis, 138 S.Ct 1612, 1632, 200 L.Ed. 2d 889
(2018), Kindred Nursing Centers Ltd. P’ship v. Clark,
137 S. Ct. 1421, 1427, 197 L. Ed. 2d 806 (2017) and AT&T
Mobility LLC v. Concepcion, 563 U.S. 333 (2011).
STATEMENT OF THE CASE
California’s Labor Code Private Attorney General Act.1
PAGA allows an employee to bring an action to recover
civil penalties for violations of California’s Labor Code
on behalf of that employee and other current and former
employees. Cal. Lab. Code § 2699 (a). PAGA claims may
be filed either on their own or along with claims seeking
1. References and descriptions in this section are to the
statutory provisions as they existed when Respondent filed his
civil action. California amended the statute effective June 27, 2016,
but the changes apply only to actions filed on or after July 1, 2016.

8
wages, damages and statutory penalties for the same
alleged Labor Code violations. PAGA’s default penalty
per violation is $100 for each aggrieved employee per pay
period for the first violation and $200 for each aggrieved
employee per pay period for each subsequent violation.
Cal. Lab. Code § 2699(f)(2). Of the penalties recovered,
the employees retain 25% and remit 75% to the State. Cal.
Lab. Code § 2699 (i). A prevailing plaintiff also recovers
attorneys’ fees. Cal. Lab. Code § 2699(g)(1).
Prior to filing a PAGA claim, the employee need
only provide written notice of the alleged violations to
the State and the employer. Cal. Lab. Code § 2699.3 (a).
PAGA does not mandate a judicial forum. If the State
chooses to investigate the alleged violations and finds them
meritorious, then an administrative citation and hearing
process follows, not a civil action in court. Lab. Code
§ 98. In practice, however, “review and investigations of
PAGA claims are quite rare.” Cal. Dept’t Indus. Relations
2016/2017 Budget Change Proposal, Budget Request
No. 7350-003-BCP-DP2016-GB, at 1. Indeed, only one
employee is staffed to review PAGA notices, and the State
investigates less than 1% of all PAGA claims. Id. at 1, n.1.
Thus, virtually every employee who files a PAGA notice
obtains the State’s tacit consent to bring his or her own
PAGA claim.
The employee is free to file a PAGA claim if, within
33 days of the written notice, the State either fails to
respond or notifies the employee that it does not intend to
investigate. Cal. Lab. Code § 2699.3(a)(2). 2 After that, the
2. In this respect, private plaintiff PAGA claims are like
private plaintiff ADEA or Title VII claims in which notice of the

9
employee alone controls any PAGA claim, without State
involvement. The State is not a named party and has no
right to intervene.
FACTUAL BACKGROUND
The Smigelski State Court Action
Petitioners are multi-state companies headquarted
in California and engaged in the business of mortgage
origination and servicing throughout the United States.
Smigelski was employed as an account executive at
PennyMac’s branch office in Sacramento for six months,
beginning in November 2014 and ending in April 2015.
At the commencement of his employment, Smigelski was
given PennyMac’s Mutual Arbitration Policy (“MAP”) and
signed an “Employee Agreement to Arbitrate” in which
he agreed “to submit to final and binding arbitration any
and all claims and disputes that are related in any way to
my employment or the termination of my employment with
[PennyMac], except as otherwise permitted by the MAP.”
On September 11, 2015, Smigelski provided notice to
the Labor Workforce and Development Agency (LWDA)
and to PennyMac of his intent to pursue a claim for civil
penalties under PAGA. On November 17, 2015, Smigelski
filed an action asserting a single claim under PAGA
seeking to recover civil penalties.

allegations must be filed with the agency, which then issues a
“right to sue” letter permitting the employee to pursue the claim
in the employee’s own name, either in a civil action or, when the
employee has agreed to arbitrate, in arbitration.

10
In response, PennyMac filed a petition to compel
arbitration and stay the action. The trial court denied the
petition. Appendix E, 51a.
Armed with the ruling that his arbitration agreement
was unenforceable, Smigelski filed an amended complaint
adding individual and putative class claims seeking unpaid
wages, statutory penalties, restitution, and damages,
in addition to civil penalties under PAGA. PennyMac
responded to the amended complaint with a motion for
reconsideration and a second petition to compel arbitration.
The trial court denied the motion for reconsideration and
the second petition. Appendix C, 38a; Appendix D, 48a.
PennyMac appealed. On December 19, 2018 the Court
of Appeal affirmed. App. B, 2a. On April 10, 2019, the
California Supreme Court summarily denied PennyMac’s
Petition for Review. App. A, 1a. This Petition follows.
The Related Heidrich Federal Court Action & Appeal
While the appeal in this case was pending before the
California Court of Appeal, counsel for Respondent filed
a substantially similar civil action in the United States
District Court for the Eastern District of California,
entitled Heidrich, et al v. Pennymac Financial Services,
Inc., et al. The Heidrich action alleged California wage
and hour claims against Petitioners substantially identical
to those alleged in Smigelski (including a PAGA claim),
but also alleged a single federal claim under the Fair
Labor Standards Act (“FLSA”). In Heidrich, Petitioners
moved to compel arbitration of the FLSA claim under
arbitration agreements identical to the agreement at
issue in Smigelski. The District Court granted the

11
motion, rejecting the argument that the representative
waiver language within the agreement was illegal under
California law and that the entire agreement was therefore
invalid. Instead, the District Court read this Court’s
decision in Epic Systems v. Lewis, 138 S.Ct. 1612, 1632
(2018) to require enforcement of the arbitration agreement
as written. Heidrich v. PennyMac Financial Services,
Inc., 2018 WL 3388458 (July 11, 2018). The District Court
dismissed the State law claims. The Heidrich plaintiffs
appealed to the Ninth Circuit Court of Appeals (case
number 18-16494). The appeal is fully briefed and awaiting
oral argument.
Recently, after the California Supreme Court denied
review in this case and the Smigelski Court of Appeal
decision became final, the Heidrich appellants filed
requests for judicial notice with the Ninth Circuit Court of
Appeals and filed a motion for an indicative ruling with the
District Court. In these filings, counsel for the Heidrich
appellants (who is also counsel for Respondent in this
case) argues that the Smigelski Court of Appeal decision
should be given collateral estoppel effect in the Heidrich
appeal and any remand. This latest development in the
related Heidrich case illustrates that what happens in
State courts does not stay in State courts, and underscores
the need for this Court to resolve the conflict between the
FAA and California’s latest device for avoiding arbitration.
REASONS FOR GRANTING REVIEW
This Court has declared that “State courts rather than
federal courts are most frequently called upon to apply
the Federal Arbitration Act (“FAA”), 9 U. S. C. §1 et seq.,
including the Act’s national policy favoring arbitration.

12
It is a matter of great importance, therefore, that state
supreme courts adhere to a correct interpretation of the
legislation.” Nitro-Lift Technologies, LLC v. Howard,
568 U.S. 17–18, 20 (2012) (per curiam). How California’s
courts implement this Court’s precedents and their
interpretation of the FAA presents a greatly important
question of law.
The decision below defies this Court’s clear and
repeated holdings that the FAA preempts state-law
rules that discriminate against arbitration agreements.
By prohibiting outright the enforcement of a plaintiff
employee’s pre-dispute agreement to arbitrate in all
PAGA cases, the court below disregarded this Court’s
definitive interpretation of the FAA. “When state law
prohibits outright the arbitration of a particular type of
claim, the analysis is straightforward: The conflicting rule
is displaced by the FAA.” Concepcion, supra, 563 U.S. at
341 (citing Preston v. Ferrer, 552 U.S. 346, 353 (2008)).
By requiring that the State expressly authorize the
plaintiff-employee to consent to arbitration – even though
California law does not impose that requirement for other
types of contracts – the court below flatly violated the
FAA’s mandate that courts must “place [] arbitration
agreements on equal footing with all other contracts.”
DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463, 468, 193 L. Ed.
2d 365 (2015); see also Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681, 686-87 (1996); Perry, 482 U.S. at 492 n. 9.
Whether PAGA claims are arbitrable was the issue
squarely presented to, and decided below by the trial
court and the Court of Appeal. The Court of Appeal held:

13
Smigelski executed the employee agreement as
a condition of his employment in November 2014,
before he satisfied the statutory requirements
for bringing a PAGA claim, which occurred
sometime in October 2015. [] Prior to the time
he satisfied those requirements, Smigelski
was not authorized to assert a PAGA claim as
an agent of the state, which retained control
of the right underlying the claim. [] Because
Smigelski entered the arbitration agreement
as an individual, and not as an agent or
representative of the state, the agreement
cannot encompass the PAGA claim, which relies
on the right to recover penalties then belonging
to the state. [] It follows that any predispute
agreement to arbitrate individual PAGA claims
was ineffective.
App. B, 26a – 27a. [emphasis added, internal citations
omitted].
By drawing a red circle around PAGA claims and
declaring them exempt from arbitration in all cases
involving pre-dispute arbitration agreements, the Court
of Appeal created a state law rule that is plainly in conflict
with and therefore preempted by the FAA.
Indeed, an unbroken line of decisions by the federal
appellate court for California and numerous decisions by
federal District Courts in California have held exactly the
opposite. These federal decisions hold that PAGA claims
are subject to arbitration under pre-dispute agreements
between the actual parties to the lawsuit, notwithstanding
the State’s interest in its share of any monetary penalties

14
recovered. See Ridgeway v. Nabors Completion & Prod.
Serv. Co., 725 F. Appx 472, 474 (9th Cir. 2018); Sakkab v.
Luxottica Retail N. Am., Inc., 803 F.3d 425, 434 (9 th Cir.
2015); Wulfe v. Valero Ref. Co.-Cal., 641 Fed. Appx. 758,
760 (9th Cir. 2016); Valdez v. Terminix Int’l Co. Ltd. P’ship,
681 F. App’x 592, 594 (9th Cir. 2017); Poublon v. C.H.
Robinson Co., 846 F.3d 1251, 1273 (9th Cir. 2017); Galvan
v. Michael Kors USA Holdings, Inc., 2017 WL 253985,
at *10 (C.D. Cal. 2017); Bui v. Northrop Grumman Sys.
Corp., No. 15-CV-1397-WQH-WVG, 2015 WL 8492502, at
*7 (S.D. Cal. 2015); Hernandez v. DMSI Staffing, LLC.,
79 F. Supp. 3d 1054, 1067 (N.D. Cal. 2015) (“The fact that
the waiver provisions of the arbitration clauses at issue
cannot be enforced to bar PAGA representative claims
does not necessarily dictate which forum is proper for
their adjudication.”), aff’d sub nom. Hernandez v. DMSI
Staffing, LLC, 677 F. App’x 359 (9th Cir. 2017).
These federal courts are correct. In addition, this
conflict between the state and federal courts of California
means that a party’s rights under the FAA currently turn
entirely on whether the lawsuit is prosecuted in state
or federal court. For PennyMac, this conflict is not just
hypothetical. Instead, it is quite real. While the California
Court of Appeal applied the “State must consent” rule
to find the arbitration agreement “ineffective” as to the
PAGA claim, and simultaneously (and contradictorily)
found the class and representative action waiver to be
unlawful under California law 3 , the District Court in
3. If Smigelski was not authorized to consent on behalf of the
State to arbitrate PAGA claims for representative penalties, how
could he waive any right to pursue representative PAGA claims in
arbitration? And if the waiver language was of no consequence to
the State’s rights or Smigelski’s future ability to vindicate them,
how could the waiver be “unlawful” or violate State public policy?

15
the related and virtually identical Heidrich case applied
Epic and this Court’s other FAA precedents to reject the
very same arguments that the class and representative
action waiver was illegal under California law. Whereas
the Court of Appeal used the alleged invalidity of the
representative waiver language to deny enforcement
of the entire agreement (even as to arbitrable claims),
the District Court enforced the whole agreement “as
written.” Now, however, Petitioners face the possibility
that the doctrine of collateral estoppel will be invoked in
the Heidrich case to force the District Court to invalidate
the entire arbitration agreement based on the Smigelski
Court of Appeal decision. This affront to the Supremacy
Clause should not be allowed to fester.
Because the question is cleanly presented, this case
is perfect vehicle to resolve the issue of arbitration of
PAGA claims. The Court of Appeal did not fully address
other issues raised by PennyMac, because it ruled that
PAGA claims are never arbitrable based on a pre-dispute
arbitration agreement entered into by the employee and
his employer. Therefore, this single issue is squarely
presented in this case.
The question presented in this case is fully ripe.
California’s Supreme Court now has refused to correct
three separate Courts of Appeal that have defied this
Court’s precedents by holding PAGA claims are exempt
from arbitration. Appendix A, 1a; Julian v. Glenair,
Inc., 17 Cal. App. 5th 583 (2017) (review denied February
14, 2018), Betancourt v. Prudential Overall Supply, 9
Cal. App. 5th 439 (2017) (review denied May 24, 2017),
Tanguilig v. Bloomingdales, 5 Cal. App. 5th 665, 677-678
(2016) (review denied March 1, 2017). The Ninth Circuit
has clearly and repeatedly rejected the California courts’

16
approach. Further percolation would serve no purpose.
Only this Court can resolve the question presented, and
that question is ripe for resolution now.
The decision below is yet another in a long line of state
court decisions seeking to evade this Court’s precedents
on arbitration. See, e.g., Kindred Nursing Centers Ltd.
P’ship, 137 S. Ct. at 1427; Imburgia, 136 S.Ct. 463; CarMax
Auto Superstores California, LLC v. Fowler, 134 S.Ct.
1277, 188 L.Ed.2d 290 (2014); Nitro-Lift Technologies,
L.L.C. v. Howard, 568 U.S. 17, 20 (2012) (per curiam);
Marmet, 565 U.S. 530, 533 (2012)(per curiam). California
leads the vanguard in such attempts to circumvent
the FAA with state law rules disfavoring arbitration.
DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463, 468 (2015),
CarMax Auto Superstores California, LLC v. Fowler,
134 S.Ct. 1277, 188 L.Ed.2d 290 (2014), Sonic-Calabasas
A, Inc. v. Moreno, 565 U.S. 973 (2011) and Perry, supra,
482 U.S. at 489 n. 2. Review and reversal or vacatur of
the decision below is warranted to prevent the Court of
Appeal’s flouting of the FAA, to prevent the contagion of
such disobedience from infecting the related federal case
and to preserve the integrity of this Court’s precedents.
A. The Decision Below Conflicts With The FAA And
Defies This Court’s Precedents.
The FA A “ is a law of the United States, and
Concepcion is an authoritative interpretation of that Act.
Consequently, the judges of every State must follow it.”
Imburgia, supra, 136 S.Ct. 463.
In Concepcion, supra, 563 U.S. at 341, this Court
explained the most obvious type of state law rules that
are preempted by the FAA. “When state law prohibits

17
outright the arbitration of a particular type of claim,” it
presents a “straightforward” analysis: “The conflicting
rule is displaced by the FAA.”
In this case, the Court of Appeal’s holding prohibits
outright the arbitration of a particular type of claim –
PAGA claims for civil penalties – any time the agreement
to arbitrate was entered into by the parties before the
employee satisfied the minimal administrative notice
requirements of PAGA. App. B, 26-27a.
Leg islative and judicial attempts to preclude
arbitration of California Labor Code claims have been held
by this Court to be preempted by the FAA in numerous
cases. Perry v. Thomas, 482 U.S. 483, 490 (1987)(Labor
Code § 229, restricting arbitration of wage disputes,
preempted and invalidated by FAA); Preston, supra, 522
U.S. at 359-360 (FAA supersedes the California Talent
Agencies Act, which vests exclusive jurisdiction over
disputes with Labor Commissioner); Sonic-Calabasas,
supra, 565 U.S. 973 (2011)(vacating California rule
requiring Labor Commissioner administrative hearing
before arbitration of a wage dispute covered by arbitration
agreement) .
The California Court of Appeal’s rule prohibiting
enforcement of pre-dispute arbitration agreements as
applied to PAGA cases filed and prosecuted solely by the
signatory employee against the signatory employer cannot
be squared with the plain terms and manifest purpose of
the FAA.4
4. The Smigelski rule, which singles out pre-dispute
agreements to arbitrate PAGA claims for unequal treatment,
contravenes the text of FAA § 2: “A written provision in * * * a

18
Cong ress ena ct ed t he FA A t o “ rever se t he
longstanding judicial hostility to arbitration agreements,”
“to place [these] agreements upon the same footing
as other contracts,” and to “manifest a liberal federal
policy favoring arbitration agreements.” EEOC v. Waffle
House, Inc., 534 U.S. 279, 289 (2002)(quotation marks
omitted). Section 2 of the FAA therefore commands that
“[a]n agreement to arbitrate is valid, irrevocable, and
enforceable as a matter of federal law, *** ‘save upon such
grounds as exist at law or in equity for the revocation of
any contract.’ ” Perry, supra, 482 U.S. at 492, n. 9 (quoting
9 U.S.C. § 2).
This principle means that “Congress precluded States
from singling out arbitration provisions for suspect status”
(Casarotto, supra, 517 U.S. at 687) or from invalidating
arbitration provisions through state-law rules that
“apply only to arbitration or that derive their meaning
from the fact that an agreement to arbitrate is at issue.”
Concepcion, supra, 563 U.S. at 339; see also Imburgia,
supra, 136 S. Ct. at 469; Perry, 482 U.S. at 492 n.9. Nor
may States apply generally applicable state-law doctrines
contract evidencing a transaction involving commerce to settle by
arbitration a controversy thereafter arising out of such contract
* * * or an agreement in writing to submit to arbitration an
existing controversy arising out of such a contract * * * shall
be valid, irrevocable, and enforceable, save upon such grounds
as exist at law or in equity for the revocation of any contract.”
9 U.S.C. § 2 (emphasis added). By its terms, then, the FAA
requires the enforcement of both pre-dispute and post-dispute
arbitration agreements and mandates that they be treated
equally. If Congress wanted to make only post-dispute arbitration
agreements enforceable under the FAA, it would have done so. See
15 U.S.C. § 1226(a)(2).

19
“in a fashion that disfavors arbitration.” Concepcion,
563 U.S. at 341; see also Kindred Nursing Centers Ltd.
P’ship v. Clark, 137 S. Ct. 1421, 1427, 197 L. Ed. 2d 806
(2017). Like California Labor Code section 229 prohibiting
arbitration of any claim under the Labor Code for wages
(which this Court held preempted by the FAA 30 years ago
in Perry, supra, 482 U.S. at 492), the Court of Appeal’s
rule is an outright prohibition on arbitration of a particular
type of Labor Code claim.
The Court of Appeal attempted to justify its antiarbitration rule as one of general applicability based on
the wrongheaded notion that because the State has an
interest in Smigelski’s PAGA claim for monetary penalties,
it is the “party” to the PAGA action and Smigelski is
not. Relying on this false premise, the Court of Appeal
concluded, “Smigelski executed the employee agreement
. . . before he satisfied the statutory requirements for
bringing a PAGA claim, . . . Because Smigelski entered
the arbitration agreement as an individual, and not as
an agent or representative of the state, the agreement
cannot encompass the PAGA claim, which relies on the
right to recover penalties then belonging to the state
. . . . It follows that any predispute agreement to arbitrate
individual PAGA claims was ineffective.” Appendix B, 2627a [p. 19] This artifice is in direct conflict with the FAA,
which required that Smigelski’s arbitration agreement
be enforced to compel arbitration of any action filed and
prosecuted by Smigelski.
The Smigelski rationale relies on a double fiction:
(1) that the State, despite being entirely absent from
the proceeding and having no authority to intervene,
is a party; and (2) that the plaintiff, despite statutory

20
authorization to sue in his own name and to prosecute or
settle the PAGA claims without any State involvement,
is nevertheless acting on the state’s behalf and therefore
his private agreement to arbitrate is inapplicable absent
State consent. 5
This case is in marked contrast to employment cases
where a State or federal agency is a direct party to
the lawsuit against the employer and directly controls
the litigation, in which case the employee’s arbitration
agreement with the employer does not bar the government
from pursuing the action in court. For example, this
Court ruled in EEOC v. Waffle House, Inc., 534 U.S. 279
(2002) held that an employee’s arbitration agreement with
his employer did not prevent the EEOC from suing the
5. The false analogy often drawn by California courts is
that PAGA claims are “a kind of qui tam” claim. This Court has
held that in a federal qui tam action the named plaintiff, not the
government, is the party plaintiff and the government is not a
party unless the government has intervened in the action. United
States ex rel. Einstein v. City of New York, 556 U.S. 928, 933
(2009). Furthermore, comparison of California’s actual qui tam
statute, Government Code section 12652, to Labor Code section
2699, shows that PAGA claims bear no resemblance to qui tam
actions, either in terms of the injured party whose rights were
violated or the continuing right of the State or its subdivisions
to control the litigation or any settlement, even in cases where
they do not intervene at the outset. California Government Code
§12652 authorizes qui tam actions in which the State has been
defrauded and monetarily injured, and authorizes the State to
intervene and control the litigation or its disposition at all stages.
PAGA authorizes additional penalties that are derivative of and
based solely upon Labor Code violations suffered by the employee,
and once the employee obtains standing to assert a PAGA claim,
the State lacks any ability to intervene or control the litigation.

21
employer on behalf of the employee for victim-specific
relief. The Court simply concluded that the EEOC was
not required to arbitrate, because the EEOC, not the
employee was the actual party to the litigation. See
Preston, supra, 552 U.S. at 359 (explaining “in Waffle
House . . . the Court addressed the role of an agency
. . . as prosecutor, pursuing an enforcement action in its
own name.”) But the Court’s conclusion in Waffle House
was based on the facts that: (1) the employee was not a
party to the lawsuit; (2) the employee did not exercise
control over the litigation; (3) the EEOC was not a proxy
for the individual employee; and (4) the EEOC could
prosecute the action without the employee’s consent. The
Court explained that the result would be different if “the
EEOC could prosecute its claim only with [the employee’s]
consent” or “if its prayer for relief could be dictated by
[the employee].” Id. 534 U.S. at 291.
The Court of Appeal’s reasoning here that the State
is the real party in the PAGA action and that Smigelski
is not a party is contrary to holding of Waffle House,
because Smigelski is the named party to the lawsuit and
he controls the litigation in its entirety. Smigelski alone
filed the lawsuit - he is a party to it and the State is not.
This Court held in United States ex rel. Einstein v. City
of New York, 556 U.S. 928, 933 (2009) that “A ‘party’ to
litigation is ‘[o]ne by or against whom a lawsuit is brought’”
the government’s ‘status as a ‘real party in interest’ in a
qui tam action does not automatically convert it into a
‘party’”, and stated that when a real party in interest “has
declined to bring the action or intervene, there is no basis
for deeming it a ‘party.’” This Court further stated: “A
‘party’ to litigation is ‘[o]ne by or against whom a lawsuit
is brought.’ Black’s Law Dictionary 1154 (8th ed.2004).

22
An individual may also become a ‘party’ to a lawsuit by
intervening in the action.”
Generally applicable California law is similar. A
California Court of Appeal in Villacres v. ABM Indus.
Inc., 189 Cal.App.4th 562, 591-592 (2010) held that the
employee, not the State, is the plaintiff in a PAGA action
when the State fails to pursue the matter itself, stating:
“[plaintiff employee] contends the State of
California is, as a legal matter, the actual
plaintiff here. Not so. The PAGA authorized
[the employee] to file this action ‘on behalf
of himself . . . and other current and former
employees.’ (§2699, subd.(a).) The act ‘empowers
or deputizes an aggrieved employee to sue
for civil penalties . . . as an alternative to
enforcement by the [State].” (emphasis added).
This case too involves PAGA. But the contrary rationale
of the Court of Appeal here treats arbitration agreements
more unfavorably than other types of agreements (e.g.
settlement agreements as in Villacres). The “State must
consent” rationale is a device employed only to evade FAA
preemption.
The Smigelski rule is preempted by the FAA, because
the reasoning does not apply to any agreement other than
an agreement to arbitrate. For example, California law
permits private plaintiffs to enter into agreements to
settle and release allegations of Labor Code violations
before any PAGA lawsuit is filed. Those agreements are
enforced to preclude derivative PAGA claims for penalties
entirely, without regard to whether the State signed the

23
settlement agreement or otherwise consented to the
settlement and release. Villacres v. ABM Indus. Inc.,
189 Cal. App. 4th 562, 591(2010). Indeed, PAGA itself
contemplates that private plaintiffs may choose to never
pursue claims for PAGA penalties (in which case the
State’s interest is extinguished by the employee’s inaction)
or may settle or dismiss PAGA actions without obtaining
the consent of the State. Cal. Lab. Code § 2699 (2015).
The decision below selectively disfavors only agreements
to submit PAGA claims to arbitration.
Another comparison illustrates the unequal treatment
given to the arbitration agreement here. Unlike the antiarbitration rule in this case, California courts have held
enforceable other types of agreements, even where the
private plaintiff filed the action in a private attorney
general capacity authorized by statute. In Net2Phone,
Inc. v. Superior Court, 109 Cal. App. 4th 583, 587-588
(2003), a California Court of Appeal held a forum selection
clause in a consumer contract was enforceable against
the private plaintiff suing in a private attorney general
capacity under California’s Unfair Competition Law,
even assuming the forum selection clause would not be
enforceable against the California Attorney General
making the same claims. In so holding, the court rejected
the argument that because the private plaintiff was suing
in place of the State’s Attorney General, that the forum
selection clause therefore could not be enforced against
the private plaintiff. As the court stated, “The filing of a
UCL action by a private plaintiff does not confer on that
plaintiff the stature of a prosecuting officer, and the fact
that the plaintiff may be acting as a so-called private
attorney general is irrelevant for purposes of the issue
presented here.” Net2Phone, Inc. v. Superior Court,
supra, 109 Cal. App. 4th at 588.

24
Recently, California’s Legislature made a distinct
subset of contracts in California enforceable to waive
PAGA penalty claims without requiring State consent
– collective bargaining agreements in the construction
industry that provide for binding arbitration of any
underlying Labor Code violations. Cal. Labor Code
§ 2699.6 (2019).
Such obvious inconsistency has led this Court to
conclude that similar judicial rules target arbitration
agreements. See, e.g. Kindred Nursing Centers (holding
that FAA preempted Kentucky Supreme Court’s special
rule requiring express authorization by principal of
agent to enter into arbitration agreements but not other
contracts) [137 S.Ct. at 1427]; Imburgia 136 S. Ct. at
470-71(holding that the FAA preempted the California
Court of Appeal’s interpretation of the term “law of your
state” because “nothing in the [state court’s] reasoning
suggest[ed]” that a court in that state “would reach the
same interpretation of ‘law of your state’ in any context
other than arbitration.”).
This Court should not countenance the Court of
Appeal’s decision, which is transparently incorrect and
concocted solely to evade FAA preemption.
B. The Decision Below Is Exceptionally Important.
This Court’s immediate intervention to prevent
California courts from continuing to evade the dictates of
the FAA is warranted for three basic reasons: (1) this issue
arises with great and increasing frequency; (2) there is
a square conflict between the State cour’s decision below
and decisions on the very same legal issue by the federal

25
court in California; and (3) this Court’s intervention will
make it clear that states may not invalidate arbitration
agreements on grounds which contravene the FAA and
this Court’s precedents.
1.

This issue arises with great frequency.

California is the most populous state, is a hub to
numerous major U.S. and global industries, and is home
to approximately 12% of all employees in the United
States.6 Many of those employees agree to arbitration of
their employment-related disputes at the outset of their
employment, before any dispute has arisen. As a result
of Smigelski, employment arbitration agreements under
which California employers and employees agreed to
arbitrate PAGA claims cannot be enforced.
Enterprising plaintiffs and their attorneys are quickly
taking advantage of this new loophole, using it to shirk
their contractual obligation to arbitrate employment
claims. California courts’ refusal to enforce pre-dispute
agreements to arbitrate PAGA claims has caused the
number of PAGA actions to skyrocket. “Annual PAGA
filings have increased over 200 percent in the last five
years, and over 400 percent since 2004. The fact that
PAGA claims cannot be waived by agreements to arbitrate
contributes heavily to the prevalence of these suits.”
Matthew J. Goodman, The Private Attorney General
6. As of May 2019, California had an employed workforce
of 18,653,000. Bureau of Labor Statistics, California, https://
www.bls.gov/eag/eag.ca.htm. At that time, the United States
employed workforce was 156,758,000. Bureau of Labor Statistics,
Employment status of the civilian population by sex and age,
https://www.bls.gov/news.release/empsit.t01.htm.

26
Act: How to Manage the Unmanageable, 56 Santa Clara
L. Rev. 413, 415 (2016) (citation omitted). In California,
as many as 635 new PAGA notices are now being filed
every month with the State. Cal. Dep’t of Indus. Relations
2016/2017 Budget Change Proposal, Budget Request
No. 7350-003-BCP-DP-2016-GB, at 2. This trend will
accelerate without this Court’s intervention.
2.

There is a square conflict between the ruling
below and decisions on the very same legal
issue by the federal courts in California - a
conflict that produces significant unfairness to
litigants, such as Petitioners, that are unable
to remove cases from state to federal court.

The Court of Appeal below relied on selected and
incomplete quotations from Iskanian v. CLS Transp.
Los Angeles, LLC, 59 Cal.4th 348 (2014) to hold that
PAGA claims are not arbitrable. App. B, at 16a – 24a. The
precise holding of Iskanian is that where “an employment
agreement compels the waiver of representative claims,”
whether or not the agreement specifically references
PAGA, it “frustrates the PAGA’s objectives” and “is
contrary to public policy and unenforceable as a matter of
state law.” Iskanian, supra, 59 Cal. 4th at 384. The focus of
Iskanian is not on preventing enforcement of arbitration
agreements in cases involving PAGA claims, but on
preventing waiver of substantive statutory remedies.
Iskanian held that an employer “cannot compel the waiver
of [the employee’s] representative PAGA claim but that
the agreement [to arbitrate] is otherwise enforceable
according to its terms”. Iskanian, supra, 59 Cal. 4th at 391.
Indeed, in Iskanian the court expressly remanded the
PAGA claims in that case for determination of “a number

27
of questions: (1) Will the parties agree on a single forum for
resolving the PAGA claim and the other claims? (2) If not,
is it appropriate to bifurcate the claims, with individual
claims going to arbitration and the representative PAGA
claim to litigation?” Iskanian, supra, 59 Cal. 4th at 39192. Iskanian did not rule out an arbitral forum for PAGA
claims, but stated that the employer “must answer the
representative PAGA claims in some forum.” 59 Cal.
4th at 392. The parties in this case already agreed on a
single forum for resolving the PAGA claim and all other
employment claims – they agreed on arbitration. App. B,
3a – 5a.
The Ninth Circuit Court of Appeal has explained
on several occasions that pursuant to Iskanian’s
interpretation of California law, PAGA claims are not
exempt from arbitration, but instead are subject to
arbitration if the parties’ agreement allows pursuit of
PAGA’s civil penalties. “The California Supreme Court’s
decision in Iskanian expresses no preference regarding
whether individual PAGA claims are litigated or arbitrated.
It provides only that representative PAGA claims may not
be waived outright. [] The Iskanian rule does not prohibit
the arbitration of any type of claim.” Sakkab, supra, 803
F.3d at 434 (internal citation omitted); see also Ridgeway
v. Nabors Completion & Products Serv. Co., 725 F. Appx
472, 474 (9th Cir. 2018); Poublon, supra, 846 F.3d at 1273
(“the waiver of representative claims is unenforceable to
the extent it prevents an employee from bringing a PAGA
action. This clause can be limited without affecting the
remainder of the agreement.”); Valdez, supra, 681 F. App’x
at 594; Wulfe, supra, 641 Fed. Appx. at 760.
Accordingly, under the Ninth Circuit’s interpretation
of California law, “[n]othing prevents parties from agreeing

28
to use informal procedures to arbitrate representative
PAGA claims.” Sakkab, supra, 803 F.3d at 436. Since
Sakkab determined that the narrow Iskanian rule was
not in conflict with the FAA, numerous district courts in
California have compelled arbitration of PAGA claims.7
As the Ninth Circuit noted, this limited state law rule
does not conflict with and therefore is not preempted by
the FAA. Sakkab, supra, 803 F.3d at 434 (“The Iskanian
rule does not prohibit the arbitration of any type of
claim.”). The same cannot be said of the per se rule against
arbitration of PAGA claims that the Court of Appeal in
this case created.
Indeed, the Ninth Circuit rejected the exact rule
proffered by the Court of Appeal below in this case. Valdez
v. Terminix Int’l Co. Ltd. P’ship, supra. As the Ninth
Circuit stated:
Iskanian and Sakkab clearly contemplate that
an individual employee can pursue a PAGA
claim in arbitration, and thus that individual
employees can bind the state to an arbitral
forum. *** Accordingly, an individual employee,
7. See e.g., Galvan v. Michael Kors USA Holdings, Inc., 2017
WL 253985, at *10 (C.D. Cal. 2017); Bui v. Northrop Grumman
Sys. Corp., No. 15-CV-1397-WQH-WVG, 2015 WL 8492502, at
*7 (S.D. Cal. 2015) (“Neither Iskanian nor Sakkab suggest that
PAGA claims cannot be arbitrated.”); Hernandez v. DMSI Staffing,
LLC., 79 F. Supp. 3d 1054, 1067 (N.D. Cal. 2015) (“ The fact that
the waiver provisions of the arbitration clauses at issue cannot be
enforced to bar PAGA representative claims does not necessarily
dictate which forum is proper for their adjudication.”), aff’d sub
nom. Hernandez v. DMSI Staffing, LLC, 677 F. App’x 359 (9th
Cir. 2017).

29
acting as an agent for the government, can
agree to pursue a PAGA claim in arbitration.
Iskanian does not require that a PAGA claim
be pursued in the judicial forum; it holds only
that a complete waiver of the right to bring a
PAGA claim is invalid.
Valdez, supra, 681 F. App’x at 594 (internal citations
omitted, emphasis added).
Here, the Court of Appeal below extracted the exact
opposite rationale from Iskanian, to justify a per se rule
that an employee’s pre-dispute agreement to arbitrate
may never be enforced against the employee’s asserted
PAGA claims.8 This rule, if allowed to stand, will invalidate
vast numbers of employment arbitration agreements when
applied to PAGA cases.
The Ninth Circuit also has held that the FAA as
interpreted by this Court in Concepcion preempts
California’s rule attempting to exempt from arbitration
private attorney general actions seeking public injunctive
8. The rationale of Julian, Betancourt and Tanguilig
adopted by the Court of Appeal is inconsistent with the holding
of Iskanian. If an employee who signs a predispute arbitration
agreement is incapable of agreeing to arbitrate PAGA claims,
then logically the employee must also be incapable of waiving any
rights with respect to PAGA claims. If that were so, the inclusion
of representative waiver language within a predispute arbitration
agreement could not offend California’s public policy, because it
would be a nullity with no potential application to any PAGA claim
that might later be filed by the employee. In that case, surely,
such a null term could not taint the entire agreement with an
illegal purpose or render the entire agreement unenforceable as
to arbitrable claims.

30
relief under California’s consumer protection laws.
Ferguson v. Corinthian Colleges, Inc., 733 F.3d 928, 934
(9th Cir. 2013) (holding that Concepcion’s core holding
“also resolves this case. By exempting from arbitration
claims for public injunctive relief under the CLRA, UCL,
and FAL, the Broughton–Cruz rule similarly prohibits
outright arbitration of a particular type of claim.”)
The Court of Appeal’s decision in this case cannot
be reconciled with the Ninth Circuit decisions discussed
above. This conflict between California’s state and federal
courts will prejudice companies like PennyMac, who are
headquartered in California and unable to remove PAGA
cases to federal court. California state courts will not
enforce pre-dispute arbitration agreements in those PAGA
cases based on Julian v. Glenair, Inc., 17 Cal. App. 5th 853
(2017)(refusing to enforce arbitration agreement against
signatory employee’s PAGA claim because State did not
consent to arbitration); Betancourt v. Prudential Overall
Supply, 9 Cal. App. 5th 439 (2017) (refusing to enforce
a pre-dispute arbitration agreement against signatory
employee’s PAGA claim because State had not expressly
consented to arbitrate), Tanguilig v. Bloomingdales, 5
Cal. App. 5th 665, 677-678 (2016) (same) and Esparza v. KS
Industries, L.P. 13 Cal. App. 5th 1228, 1246 (2019)(“The
rule of nonarbitrability adopted in Iskanian is limited to
representative claims for civil penalties in which the state
has a direct financial interest.”).
In contrast, companies headquartered or incorporated
elsewhere will be able to remove such cases to federal
court and enforce their arbitration agreements - thereby
allowing those companies “to realize the benefits of private
dispute resolution,” including “lower costs” and “greater

31
efficiency and speed.” Stolt-Nielsen S.A. v. AnimalFeeds
Int’l Corp., 559 U.S. 662, 685 (2010); see also, e.g., Circuit
City Stores, Inc. v. Adams, 532 U.S. 105, 123 (2001)
(“Arbitration agreements allow parties to avoid the costs
of litigation ***.”). That dichotomy places California
businesses like PennyMac at a distinct disadvantage.9
The circumstances here are therefore similar to those
that warranted this Court’s review in Imburgia. See
136 S. Ct. at 467-48 (observing that the petition granted
“not[ed] that the Ninth Circuit had reached the opposite
conclusion on precisely the same interpretive question
decided by the California Court of Appeal”). This Court’s
intervention is needed in order to ensure that parties’
rights in California under the FAA do not depend on
the forum - state or federal court - in which they seek to
enforce an arbitration agreement.
3.

This Court’s intervention also will make
clear that lower courts may not invalidate
arbitration agreements in contravention of the
FAA and this Court’s precedents.

This Court repeatedly has intervened by granting
summary reversals when state courts have ignored or
refused to apply controlling precedents interpreting the
FAA. As the Court has explained, because “[s]tate courts
rather than federal courts are most frequently called upon
9. The Smigelski Court of Appeal decision threatens to
disadvantage Pennymac even in federal courts, as illustrated in
the related Heidrich case, where Respondent’s counsel is invoking
collateral estoppel in an effort to have California law as articulated
by the Smigelski Court of Appeal trump the FAA as interpreted
by this Court in Epic.

32
to apply the *** FAA,” “[i]t is a matter of great importance
*** that state supreme courts adhere to a correct
interpretation of the legislation.” Nitro-Lift, supra, 568
U.S. 17 at 501; accord Marmet Health Care Center, Inc. v.
Brown, 565 U.S. 530 at 532 (2012) (the Court summarily
vacated and remanded the lower court’s decision, because
“The West Virginia court’s interpretation of the FAA was
both incorrect and inconsistent with clear instruction in
the precedents of this Court.”); KPMG LLP v. Cocchi,
565 U.S. 18, 22 (2011) (per curiam) (the Court summarily
vacated the Florida District Court of Appeal’s refusal
to compel arbitration as “fail[ing] to give effect to the
plain meaning of the [Federal Arbitration] Act and to the
holding of Dean Witter [Reynolds, Inc. v. Byrd, 470 U.S.
213 (1985)].”); Citizens Bank v. Alafabco, Inc., 539 U.S. 52,
56-58 (2003) (per curiam) (the Court summarily reversed
the Alabama Supreme Court’s refusal to apply the FAA
based on an “improperly cramped view of Congress’
Commerce Clause power” that was inconsistent with this
Court’s decision in Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995)).
This Court also recently reversed the Kentucky
Supreme Court, which had imposed a state law rule
prohibiting authorized agents from binding their principals
to arbitration agreements, despite broad authority under
Kentucky law to enter into all manner of other contracts.
Kindred Nursing Centers Ltd. P’ship v. Clark, 137 S. Ct.
1421, 1427, 197 L. Ed. 2d 806 (2017) (“Such a rule is too
tailor-made to arbitration agreements—subjecting them,
by virtue of their defining trait, to uncommon barriers—
to survive the FAA’s edict against singling out those
contracts for disfavored treatment.”). As this Court held in
that case, “[a] rule selectively finding arbitration contracts

33
invalid because improperly formed fares no better under
the Act than a rule selectively refusing to enforce those
agreements once properly made.” Id. at 1428. The rule
imposed by the Court of Appeal below, selectively finding
pre-dispute agreements invalid in PAGA cases should
fare no better.
This Court in 2015 reversed a decision of the California
Court of Appeal adopting an incorrect interpretation of an
arbitration agreement in an attempt to find the agreement
unenforceable. Imburgia, 136 S. Ct. at 468-71. This Court
was once again compelled to remind the lower courts of
their “undisputed obligation” to follow its precedents:
“The Federal Arbitration Act is a law of the United States,
and Concepcion is an authoritative interpretation of that
Act. Consequently, the judges of every State must follow
it.” Id. at 468.
The decision below indicates that California courts
continue to defy this Court’s instructions. Left to stand, the
decision below could well prompt other state legislatures
to “deputize” private plaintiffs in order to render their
previously signed arbitration agreements unenforceable or
could prompt state courts to manufacture interpretations
of state agency law that single out arbitration for
disfavored treatment in an effort to circumvent the FAA
and this Court’s precedents. This approach has already
been recommended to anti-arbitration State legislatures.
See Janet Cooper Alexander, To Skin A Cat: Qui Tam
Actions As A State Legislative Response to Concepcion, 46
U. Mich. J.L. Reform 1203 (2013). New York and Vermont
are considering PAGA-like measures for employment,
consumer and nursing home lawsuits as an end-run around
Epic, Kindred and Concepcion. See Ceilidh Gao, What’s

34
Next for Forced Arbitration? Where We Go After SCOTUS
Decision in Epic Systems, Nat’l Emp. L. Project (June
5, 2018), https://www.nelp.org/blog/whats-next-forcedarbitration-go-scotus-decision-epic-systems/ (discussing
other state statutes similar to PAGA).
Just last term this Court observed in Epic that: “Just
as judicial antagonism toward arbitration before the
Arbitration Act’s enactment “manifested itself in a great
variety of devices and formulas declaring arbitration
against public policy,” Concepcion teaches that we must
be alert to new devices and formulas that would achieve
much the same result today.” 138 S.Ct. at 1623. As this
case demonstrates, States deputizing private plaintiffs as
nominal “private attorneys general” and requiring State
“consent” to arbitration agreements previously agreed to
by those private parties is precisely such a device.
4.

Summary reversal or remand would also be
appropriate in this case.

Given the clear conflict between the decision below and
this Court’s precedents, the Court may wish to consider
summarily reversing the decision below.
If the Court believes that neither plenary review nor
summary reversal is warranted, it may wish to consider
granting, vacating, and remanding the decision below
in light of Kindred Nursing Centers, Imburgia, Epic,
and Concepcion. This Court has already taken that
course in other cases presenting state courts’ refusal to
adhere to this Court’s precedents interpreting the FAA.
See Schumacher Homes of Circleville, Inc. v. Spencer,
136 S. Ct. 1157 (2016); Ritz-Carlton Development Co. v.

35
Narayan, 136 S. Ct. 799 (2016); CarMax Auto Superstores
California, LLC v. Fowler, 134 S.Ct. 1277, 188 L.Ed.2d
290 (2014). Doing the same here would remind the
California courts that they may not prohibit arbitration of
a particular type of state law claim or otherwise disfavor
arbitration.
CONCLUSION
The petition for a writ of certiorari should be granted.
The Court may wish to consider summary reversal, or
vacatur for reconsideration in light of Kindred Nursing
Centers, Imburgia, Epic and Concepcion.
Respectfully submitted,
James A. Bowles
Counsel of Record
Michael S. Turner
E. Sean McLoughlin
Warren J. Higgins
Hill, Farrer & Burrill LLP
One California Plaza
300 South Grand Avenue, 37th Floor
Los Angeles, California 90071
(213) 620-0460
jbowles@hillfarrer.com
Counsel for Petitioners

APPENDIX

1a
AppendixOF
A PETITION FOR
Appendix A — DENIAL
REVIEW BY the supreme court of
California filed April 10, 2019
IN THE SUPREME COURT OF CALIFORNIA
S253796
En Banc
RICHARD SMIGELSKI,
Plaintiff and Respondent,
v.
PENNYMAC FINANCIAL SERVICES, INC. et al.,
Defendants and Appellants.
Court of Appeal, Third Appellate District
No. C081958
The petition for review is denied.
/s/			
Chief Justice

2a
Appendix OF
B THE COURT OF
APPENDIX B — OPINION
APPEAL OF THE STATE OF CALIFORNIA,
THIRD APPELLATE DISTRICT (SACRAMENTO),
FILED DECEMBER 19, 2018
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
C081958
RICHARD SMIGELSKI,
Plaintiff and Respondent,
v.
PENNYMAC FINANCIAL SERVICES, INC. et al.,
Defendants and Appellants.
Superior Court of Sacramento County
No. 34201500186855CUOEGDS
December 19, 2018, Opinion Filed

Defendants and appellants Private National Mortgage
Acceptance Company, LLC, PennyMac Financial
Services, Inc., and PennyMac Mortgage Investment Trust
(collectively, “PennyMac”) appeal from orders denying
successive petitions to compel arbitration of a dispute

3a
Appendix B
with a former employee, plaintiff and respondent Richard
Smigelski. PennyMac advances a number of arguments
on appeal. Of greatest significance, PennyMac argues
the trial court erred in finding the parties’ arbitration
agreement contains unenforceable waivers of the right
to bring claims under the Private Attorneys General Act
of 2004 (PAGA) (Lab. Code, § 2699 et seq.), and erred in
declining to sever the waivers and enforce the remainder
of the agreement.1 We disagree and affirm.
I. BACKGROUND
PennyMac is engaged in the business of mortgage
orig ination and ser vicing throughout the United
States, including California. Smigelski was employed
as an account executive at PennyMac’s branch office in
Sacramento for six months, beginning in November 2014
and ending in April 2015.
A. The Arbitration Agreement
On his first day of work, Smigelski signed a document
entitled, “Employee Agreement to Arbitrate” (employee
agreement). The employee agreement acknowledges
receipt of another document entitled, “Mutual Arbitration
Policy” (MAP), and provides, “I agree that it is my
obligation to make use of the MAP and to submit to final
and binding arbitration any and all claims and disputes
that are related in any way to my employment or the
termination of my employment with [PennyMac], except
1. Undesignated statutory references are to the Labor Code.

4a
Appendix B
as otherwise permitted by the MAP.” The employee
agreement further provides, “by agreeing to use
arbitration to resolve my dispute, both PennyMac and I
agree to forego any right we each may have had to a jury
trial on issues covered by the MAP, and forego any right
to bring claims on a representative or class basis.” The
employee agreement further provides, “If any provision
of the MAP is found unenforceable, that provision may be
severed without affecting this agreement to arbitrate.”
The MAP, which Smigelski denies having received,
similarly requires “mandatory binding arbitration
of disputes, for all employees, regardless of length of
service.” As relevant here, the MAP “covers all disputes
relating to or arising out of an employee’s employment
with PennyMac,” including “wage or overtime claims or
other claims under the Labor Code.” PennyMac adopted
the MAP in 2008.
The MAP specifies that, “both you and PennyMac
forego and waive any right to join or consolidate claims in
arbitration with others or to make claims in arbitration as
a representative or as a member of a class or in a private
attorney general capacity, unless such procedures are
agreed to by both you and PennyMac.” The MAP further
specifies that, “No remedies that otherwise would be
available to you individually or to PennyMac in a court
of law . . . will be forfeited by virtue of this agreement to
use and be bound by the MAP.”
The MAP incorporates the Employment Arbitration
Rules and Mediation Procedures of the American

5a
Appendix B
Arbitration Association (AAA Employment Rules). The
MAP further provides, “PennyMac will not modify or
change the agreement between you and PennyMac to
use final and binding arbitration to resolve employmentrelated disputes without notifying you and obtaining
your consent to such changes, although specific MAP
procedures or AAA Employment Rules may be modified
from time to time as required by applicable law.” “Also,”
the MAP provides, “the Arbitrator or a court may sever
any part of the MAP procedures that do not comport with
the Federal Arbitration Act.”
B. The Complaint
On September 11, 2015, Smigelski provided notice to
the Labor Workforce and Development Agency (LWDA)
and PennyMac of his intent to pursue a cause of action
for civil penalties under PAGA. On November 17, 2015,
Smigelski filed a complaint asserting a single cause of
action under PAGA. 2 The complaint, which was styled
as a “Representative Action,” alleged that PennyMac
miscalculated overtime for hourly employees and failed
to provide accurate, itemized wage statements. The
complaint did not assert any individual claims and only
sought to recover civil penalties under PAGA.

2. LWDA had 33 days to notify Smigelski of its intent to
investigate the violations alleged in the PAGA notice under the
version of the statute in effect at the time. (Former § 2699.3, subd.
(a)(2)(A).)

6a
Appendix B
C. First Petition to Compel Arbitration
PennyMac filed a petition to compel arbitration of
the complaint pursuant to the employee agreement and
MAP (together, the arbitration agreement) in February
2016. Relying on Iskanian v. CLS Transportation Los
Angeles, LLC (2014) 59 Cal.4th 348, 173 Cal. Rptr. 3d 289,
327 P.3d 129 (Iskanian), PennyMac argued, inter alia,
that (1) employers and employees may agree to arbitrate
PAGA claims (id. at p. 391), (2) the arbitration agreement
reflects such an agreement, (3) the Federal Arbitration Act
(FAA) requires enforcement of the purported agreement
to arbitrate PAGA claims, and (4) any unenforceable
provisions in the arbitration agreement should be severed,
and the remaining provisions enforced. 3 PennyMac also
argued that the question of arbitrability was for the
arbitrator to decide, not the trial court.
Smigelski opposed the petition, arguing that the
arbitration agreement contains unenforceable PAGA
waivers within the meaning of Iskanian. Smigelski
additionally argued that the terms of arbitration
agreement preclude severance of the PAGA waivers,
rendering the agreement as a whole unenforceable.
Smigelski also argued that the arbitration agreement
does not “clearly and unmistakably” demonstrate that the
parties intended to delegate questions of arbitrability to
the arbitrator, and therefore, any questions of arbitrability
must be decided by the trial court. (See Ajamian v.
CantorCO2e (2012) 203 Cal.App.4th 771, 781-782, 137 Cal.
Rptr. 3d 773 (Ajamian).)
3. We discuss Iskanian post.

7a
Appendix B
The trial court denied PennyMac’s petition in a minute
order dated March 3, 2016, which was incorporated into a
formal order entered on March 11, 2016. The trial court
rejected as “strained” PennyMac’s argument that the
arbitration agreement contemplates arbitration of PAGA
claims, stating: “There is no ambiguity in the [employee
agreement] or the MAP. PAGA claims are prohibited
in arbitration given that the employee waives any right
to make representative claims or claims in a private
attorney general capacity. Such a prohibition violates
public policy and is unenforceable.” The trial court also
rejected PennyMac’s invitation to sever the PAGA waivers,
finding that severance would be inconsistent with the
parties’ intent, as expressed in the arbitration agreement.
The trial court explained: “[W]hile the [employee
agreement] contains an offending provision requiring
[Smigelski] to forego any representative claim, that [a]
greement specifically states that if ‘any provision of the
MAP is found to be unenforceable, that provision may be
severed without affecting this agreement to arbitrate.’
[Citation.] The [employee agreement] itself does not
contain a provision allowing for severance. This express
language reflects an intent not to sever any portion of the
[employee agreement] and striking the provision would
conflict with the parties’ intent. [Citation.] Further, the
MAP itself only provides for severance of any provision
that does not comport with the FAA. [Citation.] But here,
the waiver provisions do not comport with State law, and
thus severance of the provision in the MAP would also
conflict with the parties’ intent.” Accordingly, the trial
court determined that the arbitration agreement was
entirely unenforceable.

8a
Appendix B
The trial court also rejected PennyMac’s argument
that questions of arbitrability must be determined by the
arbitrator, noting that the MAP provides, “the Arbitrator
or a court may sever any part of the MAP procedures that
do not comport with the [FAA].” (Italics added.) “Thus,”
the trial court explained, “the [arbitration] agreements
themselves indicate an intent that the [c]ourt itself may
decide questions of arbitrability, or at a minimum[,]
create an ambiguity on that point.” Accordingly, the trial
court concluded that the question of arbitrability was
appropriate for judicial determination.
D. First Amended Complaint
On March 10, 2016, Smigelski filed a first amended
complaint adding several non-PAGA causes of action to
the original complaint. The first amended complaint,
which is the operative pleading, alleges individual and
putative class claims for unpaid overtime under sections
510 and 1194, penalties for failure to provide accurate wage
statements under section 226, waiting time penalties under
section 203, and violations of the Business and Professions
Code section 17200, et seq. The first amended complaint
seeks unpaid wages, statutory penalties, restitution, and
damages according to proof, in addition to civil penalties
under PAGA.
E. Motion for Reconsideration and Second Petition to
Compel Arbitration
PennyMac responded to the first amended complaint
with a motion for reconsideration and a second petition to

9a
Appendix B
compel arbitration. The motion sought reconsideration of
the order denying the first petition to compel arbitration
on the ground that the filing of the first amended complaint
constituted a “new and different” fact or circumstance
within the meaning of subdivision (a) of section 1008 of the
Code of Civil Procedure. The petition sought to compel
arbitration on the now familiar ground that the arbitration
agreement requires arbitration of all claims, including
PAGA claims, and any unenforceable PAGA waiver could
be severed. The second petition to compel arbitration also
argued, again, that the arbitration agreement delegates
questions of arbitrability to the arbitrator.
Smigelski opposed the motion and petition, arguing
that the filing of the first amended complaint was not a
new and different fact or circumstance within the meaning
of the reconsideration statute, and did not change the
fact that the PAGA waivers were impermissible and
the arbitration agreement unenforceable. Smigelski
additionally argued that the second petition to compel
arbitration was merely a repeat of the first, and should be
rejected for the reasons stated in the trial court’s order
denying that petition.
The trial court denied the motion for reconsideration
by written order dated April 22, 2016. The trial court
explained: “[T]he [c]ourt finds that [Smigelski’s] act of
filing the [first amended complaint] containing new claims
is not a new or different fact or circumstance which
would allow the [c]ourt to reconsider its previous order
denying [PennyMac’s first] petition to compel arbitration.
Indeed, to that end, it must be remembered that the
[c]ourt in denying the petition found that the MAP and the

10a
Appendix B
[employment agreement] contained provisions that violated
public policy and could not be severed thus rendering the
entire MAP and [employment agreement] unenforceable.
It is true that the [c]ourt’s ruling extensively discussed
the fact that [Smigelski] was only asserting a PAGA claim
at the time. But the [c]ourt specifically found that even so,
provisions prohibiting arbitration of PAGA claims could
not be severed from the agreements and the agreements
as a whole were therefore unenforceable. This of course
would preclude arbitration of not only PAGA claims, but
any claims whatsoever, including the new individual and
class claims set forth in the [first amended complaint].”
“In any event,” the trial court concluded, “even if the court
were to find that the [first amended complaint] was a new
or different fact or circumstance for purposes of [section
1008], it would simply affirm its previous order denying
[PennyMac’s first] petition to compel arbitration.”
The trial court denied PennyMac’s second petition
to compel arbitration the same day, stating that, “Even
if the [c]ourt were to find that a successive petition were
permitted as a result of the [first amended complaint]
being filed, the [c]ourt extensively addressed and rejected
these arguments in denying the original petition and
the [c]ourt simply rejects the arguments for the reasons
previously discussed.”
F. Notice of Appeal
PennyMac appeals from the orders denying its first
and second petitions to compel arbitration. PennyMac
does not appeal from the order denying its motion for
reconsideration.

11a
Appendix B
II. DISCUSSION
On appeal, PennyMac argues the trial court erred in
denying the petitions to compel arbitration for a number of
reasons, many of which appear to build upon one another
in ways that are not always easy to discern. As near as
we can tell, PennyMac’s argument can be reduced to four
principal contentions: (1) the arbitration agreement does
not contain invalid PAGA waivers, (2) any illegal aspects
of the arbitration agreement should be severed, and the
rest of the agreement enforced, (3) the parties delegated
the question of arbitrability to the arbitrator, and (4) the
FAA preempts any state law precluding employers from
requiring employees to waive their right to a judicial
forum for PAGA claims as a condition of employment.
Before addressing the substance of PennyMac’s
contentions, we pause to review the applicable statutory
scheme and standard of review. Because PennyMac’s
contentions require an understanding of PAGA, we will
also review the characteristics of a PAGA representative
action and the California Supreme Court’s ruling in
Iskanian. After we have reviewed the relevant statutory
background, we will address the substance of the parties’
contentions.
A. Statutory Scheme and Standard of Review
California’s procedures for a petition to compel
arbitration apply in California courts even if the arbitration
agreement is governed by the FAA. (Rosenthal v. Great
Western Fin. Securities Corp. (1996) 14 Cal.4th 394, 409-

12a
Appendix B
410, 58 Cal. Rptr. 2d 875, 926 P.2d 1061.) The party seeking
arbitration bears the burden of proving the existence of an
arbitration agreement by a preponderance of the evidence,
and the party opposing arbitration bears the burden of
proving any defense by a preponderance of the evidence.
(Pinnacle Museum Tower Assn. v. Pinnacle Market
Development (US), LLC (2012) 55 Cal.4th 223, 236, 145
Cal. Rptr. 3d 514, 282 P.3d 1217; Engalla v. Permanente
Medical Group, Inc. (1997) 15 Cal.4th 951, 972, 64 Cal.
Rptr. 2d 843, 938 P.2d 903.) In ruling on a petition to
compel arbitration, “the court must determine whether
the parties entered into an enforceable agreement to
arbitrate that reaches the dispute in question, construing
the agreement to the limited extent necessary to make
this determination. [Citation.] If such an agreement exists,
the court must order the parties to arbitration unless
arbitration has been waived or grounds exist to revoke
the agreement. [Citation.]” (California Correctional Peace
Officers Assn. v. State of California (2006) 142 Cal.App.4th
198, 204-205, 47 Cal. Rptr. 3d 717.)
“‘The scope of arbitration is a matter of agreement
between the parties.’ [Citation.] ‘A party can be compelled
to arbitrate only those issues it has agreed to arbitrate.’
[Citation.] Thus, ‘the terms of the specific arbitration
clause under consideration must reasonably cover the
dispute as to which arbitration is requested.’ [Citation.]
For that reason, ‘the contractual terms themselves must
be carefully examined before the parties to the contract
can be ordered to arbitration’ by the court. [Citation.]”
(Molecular Analytical Systems v. Ciphergen Biosystems,
Inc. (2010) 186 Cal.App.4th 696, 705, 111 Cal. Rptr. 3d 876

13a
Appendix B
(Molecular).) “Any doubts or ambiguities as to the scope
of the arbitration clause itself should be resolved in favor
of arbitration.” (Cronus Investments, Inc. v. Concierge
Services (2005) 35 Cal.4th 376, 386, 25 Cal. Rptr. 3d 540,
107 P.3d 217; accord Molecular, supra, at p. 705.)
An order denying a petition to compel arbitration is an
appealable order. (Code Civ. Proc., § 1294, subd. (a).) If the
trial court’s order denying a petition to compel arbitration
is based on a decision of fact, then the substantial evidence
standard applies; if the order is based on a decision of law,
then the de novo standard applies. (Ramos v. Westlake
Services LLC (2015) 242 Cal.App.4th 674, 686, 195 Cal.
Rptr. 3d 34; Robertson of Health Net of California, Inc.
(2005) 132 Cal.App.4th 1419, 1425, 34 Cal. Rptr. 3d 547.)
“‘[W]e review the trial court’s order, not its reasoning,
and affirm an order if it is correct on any theory apparent
from the record.’” (Adajar v. RWR Homes, Inc. (2008) 160
Cal.App.4th 563, 571, fn. 3, 73 Cal. Rptr. 3d 17.)
B. PAGA
PAGA was enacted to improve enforcement of our labor
laws. (See Caliber Bodyworks v. Superior Court (2005) 134
Cal.App.4th 365, 370, 36 Cal. Rptr. 3d 31 [noting that the
“stated goal” of the PAGA was “improving enforcement
of existing Labor Code obligations”].) “The Legislature
enacted PAGA to remedy systemic underenforcement of
many worker protections. This underenforcement was a
product of two related problems. First, many Labor Code
provisions contained only criminal sanctions, and district
attorneys often had higher priorities. Second, even when

14a
Appendix B
civil sanctions were attached, the government agencies
with existing authority to ensure compliance often lacked
adequate staffing and resources to police labor practices
throughout an economy the size of California’s. [Citations.]
The Legislature addressed these difficulties by adopting
a schedule of civil penalties ‘”significant enough to deter
violations”’ for those provisions that lacked existing
noncriminal sanctions, and by deputizing employees
harmed by labor violations to sue on behalf of the state
and collect penalties, to be shared with the state and
other affected employees.” (Williams v. Superior Court
(2017) 3 Cal.5th 531, 545, 220 Cal. Rptr. 3d 472, 398 P.3d
69 (Williams).)
Under PAGA, “an ‘aggrieved employee’ may bring a
civil action personally and on behalf of other current or
former employees to recover civil penalties for Labor Code
violations.” (Arias v. Superior Court (2009) 46 Cal.4th 969,
980, 95 Cal. Rptr. 3d 588, 209 P.3d 923 (Arias).) Before
bringing a PAGA claim, “an aggrieved employee acting on
behalf of the state and other current or former employees
must provide notice to the employer and the responsible
state agency ‘of the specific provisions of [the Labor
Code] alleged to have been violated, including the facts
and theories to support the alleged violation.’ [Citations.]
If the agency elects not to investigate, or investigates
without issuing a citation, the employee may then bring a
PAGA action.” (Williams, supra, 3 Cal.5th at p. 545.) “Of
the civil penalties recovered, 75 percent goes to the Labor
and Workforce Development Agency [LWDA], leaving
the remaining 25 percent for the ‘aggrieved employees.’”
(Arias, supra, at pp. 980-981; see also Iskanian, supra, 59

15a
Appendix B
Cal.4th at p. 360 [PAGA “authorizes an employee to bring
an action for civil penalties on behalf of the state against
his or her employer for Labor Code violations committed
against the employee and fellow employees, with most of
the proceeds of that litigation going to the state”].)
An action under PAGA “‘“is fundamentally a law
enforcement action designed to protect the public and
not to benefit private parties.”’” (Iskanian, supra, 59
Cal.4th at p. 381.) As one court of appeal has explained:
“The Legislature has made clear that an action under the
PAGA is in the nature of an enforcement action, with the
aggrieved employee acting as a private attorney general
to collect penalties from employers who violate labor laws.
Such an action is fundamentally a law enforcement action
designed to protect the public and penalize the employer
for past illegal conduct. Restitution is not the primary
object of a PAGA action, as it is in most class actions.”
(Franco v. Athens Disposal Co., Inc. (2009) 171 Cal.
App.4th 1277, 1300, 90 Cal. Rptr. 3d 539.) The aggrieved
employee sues “as the proxy or agent of the state’s labor
law enforcement agencies.” (Arias, supra, 46 Cal.4th at p.
986.) Thus, an action brought under the PAGA is “a type
of qui tam action.” (Iskanian, supra, at p. 382.)
Our Supreme Court examined the differences
between representative PAGA actions and class actions
in Arias. There, the court explained that PAGA actions
and class actions are both forms of “representative
action,” in which “the plaintiff seeks recovery on behalf
of other persons.” (Arias, supra, 46 Cal.4th at p. 977, fn.
2.) While recognizing that PAGA actions and class actions

16a
Appendix B
share common attributes as “representative actions,” the
court observed that PAGA actions are fundamentally
different from class actions, in that the former seek to
vindicate the public interest in enforcing the state’s labor
laws by imposing civil penalties, while the latter confer
a private benefit on the plaintiff and similarly situated
employees. (Id. at pp. 986-987; see also Amalgamated
Transit Union, Local 1756, AFL-CIO v. Superior Court
(2009) 46 Cal.4th 993, 1003, 95 Cal. Rptr. 3d 605, 209 P.3d
937 [“In bringing such an action, the aggrieved employee
acts as the proxy or agent of state labor law enforcement
agencies, representing the same legal right and interest as
those agencies, in a proceeding that is designed to protect
the public, not to benefit private parties”].) As such, the
court concluded, PAGA plaintiffs need not satisfy class
action requirements. (Arias, supra, at p. 975.) As we shall
discuss, the differences between representative and class
actions, which have been part of the legal landscape since
Arias, inform our understanding of the parties’ arbitration
agreement.
C. Iskanian
Having reviewed the basic statutory scheme for PAGA
claims, we now consider our Supreme Court’s opinion in
Iskanian. There, a driver for a transportation company
signed an arbitration agreement providing that “any
and all claims” arising out of his employment were to be
submitted to binding arbitration. (Iskanian, supra, 59
Cal.4th at p. 360.) The agreement also contained a waiver
of the employee’s right to pursue class or representative
claims against the defendant employer in any forum. (Id.
at pp. 360-361.)

17a
Appendix B
The employee filed a class action complaint against
the employer for failure to pay overtime, failure to provide
meal and rest periods, failure to reimburse business
expenses, failure to provide accurate and complete wage
statements, and failure to pay final wages in a timely
manner. (Iskanian, supra, 59 Cal.4th at p. 361.) The
employer moved to compel arbitration, and the trial
court granted the motion. (Ibid.) Shortly thereafter, our
Supreme Court issued its decision in Gentry v. Superior
Court (2007) 42 Cal.4th 443, 64 Cal. Rptr. 3d 773, 165
P.3d 556 (Gentry), invalidating class action waivers under
certain circumstances. (Iskanian, supra, at p. 361; see
also Gentry, supra, at pp. 463-464.) The court of appeal
issued a writ of mandate directing the superior court to
reconsider its ruling in light of Gentry. (Iskanian, supra,
at p. 361.)
On remand, the employer voluntarily withdrew its
motion to compel, and the parties proceeded to litigate
in the trial court. (Iskanian, supra, 59 Cal.4th at p. 361.)
Sometime later, the employee amended the complaint to
add representative claims under PAGA. (Ibid.)
During the pendency of the litigation, the U.S.
Supreme Court issued its opinion in AT&T Mobility LLC
v. Concepcion (2011) 563 U.S. 333, 131 S. Ct. 1740, 179 L.
Ed. 2d 742 (Concepcion), raising doubts as to the continued
viability of Gentry. (Iskanian, supra, 59 Cal.4th at pp. 361362.) The employer renewed its motion to compel, arguing
that Concepcion invalidated Gentry. (Id. at p. 361.) The
trial court granted the motion, ordering arbitration of
the employee’s individual claims and dismissing the class

18a
Appendix B
claims with prejudice. (Ibid.) The court of appeal affirmed,
and the California Supreme Court granted review and
reversed. (Id. at pp. 361-362.)
The court concluded that the arbitration agreement
was valid and enforceable, despite the class action waiver.
(Iskanian, supra, 59 Cal.4th at p. 362-378.) Under
Concepcion, the court concluded, arbitration agreements
may properly include class action waivers. (Id. at pp. 365366.) However, the court, following Arias, reaffirmed
that PAGA claims are fundamentally different from class
actions claims. (Id. at pp. 379-382.) Unlike class actions,
which are brought as a means of recovering damages
suffered by individuals, representative actions under
PAGA are brought as a means of recovering penalties
for the state. (Id. at p. 379.) The court explained: “The
PAGA was clearly established for a public reason, and
agreements requiring the waiver of PAGA rights would
harm the state’s interests in enforcing the Labor Code
and in receiving the proceeds of civil penalties used to
deter violations.” (Id. at p. 383.)
In recognition of PAGA’s public purpose, the court
concluded that, “an employee’s right to bring a PAGA
action is unwaivable.” (Iskanian, supra, 59 Cal.4th at p.
383.) Consequently, “an arbitration agreement requiring
an employee as a condition of employment to give up the
right to bring representative PAGA actions in any forum
is contrary to public policy.” (Id. at p. 360.) Put another
way, an arbitration agreement compelling the waiver of
representative PAGA claims is “contrary to public policy
and unenforceable as a matter of state law.” (Id. at p. 384.)

19a
Appendix B
The court did not examine the severability of the PAGA
waiver, presumably because the issue was not raised on
appeal. (Id. at pp. 360-361.)
Next, the court considered whether the rule prohibiting
waiver of representative PAGA claims (the anti-waiver
rule) was preempted by the FAA. (Iskanian, supra, 59
Cal.4th at pp. 384-389.) Relying on the fact that PAGA
serves as a mechanism by which the state seeks to enforce
its labor laws and collect monetary penalties, the court
explained: “Simply put, a PAGA claim lies outside the
FAA’s coverage because it is not a dispute between an
employer and an employee arising out of their contractual
relationship. It is a dispute between an employer and
the state, which alleges directly or through its agents—
either the [Labor and Workforce Development] Agency or
aggrieved employees—that the employer has violated the
Labor Code.” (Id. at pp. 386-387.) Accordingly, the court
concluded, “California’s public policy prohibiting waiver
of PAGA claims, whose sole purpose is to vindicate the
[Labor and Workforce Development] Agency’s interest
in enforcing the Labor Code, does not interfere with the
FAA’s goal of promoting arbitration as a forum for private
dispute resolution.” (Id. at pp. 388-389.)
Finally, the court made clear that the employer would
have to answer the employee’s representative PAGA
claims on remand in some forum, whether arbitral or
judicial. (Iskanian, supra, 59 Cal.4th at p. 391.) The court
observed that the arbitration agreement “gives us no
basis to assume that the parties would prefer to resolve
a representative PAGA claim through arbitration,” (id.
at p. 391) thereby raising “a number of questions: (1)

20a
Appendix B
Will the parties agree on a single forum for resolving
the PAGA claim and the other claims? (2) If not, is it
appropriate to bifurcate the claims, with individual claims
going to arbitration and the representative PAGA claim
to litigation? (3) If such bifurcation occurs, should the
arbitration be stayed pursuant to Code of Civil Procedure
section 1281.2?” (Id. at pp. 391-392.) The court concluded
that the parties could address these questions on remand.
(Id. at p. 392.)
D. The Arbitration Agreement Contains Invalid PAGA
Waivers
PennyMac argues the arbitration agreement does
not contain unenforceable PAGA waivers, but rather,
reflects the parties’ agreement to submit all employment
disputes, including PAGA claims, to arbitration. According
to PennyMac, the employee agreement, which contains
an agreement to “forego any right to bring claims on
a representative or class basis,” is ambiguous as to the
meaning of the term “representative,” and should be
narrowly interpreted as an enforceable waiver of the
right to bring a class action only, rather than broadly
interpreted as an enforceable waiver of the right to bring
a class action and an unenforceable waiver of the right
to bring a PAGA action. PennyMac argues (incorrectly)
that PAGA “does not use the word ‘representative’ at all,”
and urges us to construe the purported ambiguity in a
manner that renders the employee agreement enforceable,
rather than void. (See § 2699, subd. (l)(1) [requiring that
“aggrieved employee or representative” provide the
LWDA with a file-stamped copy of a complaint alleging a
PAGA cause of action].) We are not persuaded.

21a
Appendix B
“The ordinary rules of contract interpretation apply
to arbitration agreements. [Citation.] ‘The court should
attempt to give effect to the parties’ intentions, in light
of the usual and ordinary meaning of the contractual
language and the circumstances under which the
agreement was made. [Citations.]’ ‘The whole of a contract
is to be taken together, so as to give effect to every part,
if reasonably practicable, each clause helping to interpret
the other.’ [Citation.] ‘”A court must view the language in
light of the instrument as a whole and not use a ‘disjointed,
single-paragraph, strict construction approach’ [citation.]”’
[Citation.] An interpretation that leaves part of a contract
as surplusage is to be avoided.” (Rice v. Downs (2016) 248
Cal.App.4th 175, 185-186, 203 Cal. Rptr. 3d 555.)
PennyMac begins by asking us to construe the waiver
of “any right to bring claims on a representative or class
basis” as a waiver of the right to bring claims on a class
basis only, with the word “representative,” operating as
an illustration or amplification of the concept of a class
action.4 PennyMac’s proposed interpretation ignores the
differences between representative and class actions,
4. We note in passing that the Iskanian court uses the term
“representative” in two distinct ways: (1) in the sense that an
aggrieved employee brings a PAGA claim as a “representative”—i.e.,
a proxy or agent—of the state (Iskanian, supra, 59 Cal.4th at p. 387),
and (2) in the sense that an aggrieved employee brings a PAGA claim
on behalf of other employees (id. at pp. 383-384). (See also Julian v.
Glenair, Inc. (2017) Cal.App.5th 853, 866, fn. 6 (Julian).) PennyMac
does not argue that the double meaning of the term “representative,”
as used in the Iskanian court’s discussion of PAGA claims, renders
the term ambiguous in the context of the arbitration agreement.
Accordingly, we decline to consider the issue further.

22a
Appendix B
which were well established by the time the employee
agreement was entered. Although a claim brought on
a class basis is representative in the sense that it seeks
recovery on behalf of other people (Arias, supra, 46
Cal.4th at p. 977, fn. 2), a claim brought on a representative
basis need not seek recovery on behalf of a class. (Id. at p.
975; see also Huff v. Securitas Security Services USA, Inc.
(2018) 23 Cal.App.5th 745, 757, 233 Cal. Rptr. 3d 502 [“[A]
representative action under PAGA is not a class action”].)
It follows that a claim brought on a representative basis
is not coextensive with a claim brought on a class basis,
an interpretation reinforced by the use of the conjunction
“or,” which indicates that the parties intended to give the
terms different meanings, consistent with the established
technical usage at the time of contracting. (See Arias,
supra, at pp. 986-987; and see Civ. Code, § 1645 [“Technical
words are to be interpreted as usually understood by
persons in the profession or business to which they relate,
unless clearly used in a different sense”]; and cf. United
States v. Woods (2013) 571 U.S. 31, 45, 134 S. Ct. 557, 187
L. Ed. 2d 472 [recognizing that while the connection of
terms “by the conjunction ‘or’ . . . can sometimes introduce
an appositive—a word or phrase that is synonymous with
what precedes it (‘Vienna or Wien,’ ‘Batman or the Caped
Crusader’)—its ordinary use is almost always disjunctive,
that is, the words it connects are to ‘be given separate
meanings’”].)
Giving the terms of the employee agreement their
settled legal meaning, and giving meaning to each term
to avoid surplusage, we are convinced the waiver of the
right to bring a “representative” claim entails something

23a
Appendix B
more than a mere recapitulation of the waiver of the right
to bring a claim on a “class basis.” (See Weinreich Estate
Co. v. A.J. Johnston Co. (1915) 28 Cal.App. 144, 146, 151
P. 667 [“legal terms are to be given their legal meaning
unless obviously used in a different sense”]; and see In re
Marriage of Nassimi (2016) 3 Cal. App. 5th 667, 683, 207
Cal. Rptr. 3d 764 [“‘[c]ourts must interpret contractual
language in a manner which gives force and effect to every
provision’ [citation], and avoid constructions which would
render any of its provisions or words ‘surplusage’”].) We
therefore reject PennyMac’s attempt to read an ambiguity
into the terms of the waiver.
Having rejected PennyMac’s contention that the
waiver is ambiguous, we likewise reject the related
contention that the purported ambiguity should be
construed in a manner that renders the arbitration
agreement enforceable. As a general proposition,
ambiguous terms should be construed, where reasonable,
in favor of arbitration. (Pearson v. Dental Supplies, Inc. v.
Superior Court (2010) 48 Cal.4th 665, 682, 108 Cal. Rptr.
3d 171, 229 P.3d 83; see also Ajamian, supra, 203 Cal.
App.4th at p. 801.) But that rule does not apply where, as
here, the terms of the agreement do not lend themselves
to a lawful interpretation. (Ajamian, supra, at p. 801) We
therefore conclude that the arbitration agreement must be
construed as waiving both the right to bring class action
claims and the right to bring representative PAGA claims.
As we have discussed, an employment agreement
that compels the waiver of representative claims under
PAGA is unenforceable under Iskanian. (Iskanian,

24a
Appendix B
supra, 59 Cal.4th at p. 384 [“We conclude that where, as
here, an employment agreement compels the waiver of
representative claims under the PAGA, it is contrary to
public policy and unenforceable as a matter of state law”].)
Here, the arbitration agreement unambiguously requires
employees to waive their rights to bring representative
PAGA claims. We agree with the trial court that the PAGA
waivers set forth in the arbitration agreement are invalid
as against public policy and unenforceable under Iskanian.
In an attempt to avoid this result, PennyMac argues
somewhat confusingly that (1) Iskanian leaves open the
possibility that parties may agree to arbitrate PAGA
claims (Iskanian, supra, 59 Cal.4th at pp. 391-392),
(2) the arbitration agreement does not bar employees
from bringing PAGA claims, and (3) the MAP and AAA
Employment Rules empower the arbitrator to award
any statutorily authorized civil penalty, including PAGA
penalties. Connecting the dots, we understand PennyMac
to argue that the arbitration agreement does not contain
impermissible PAGA waivers because, though employees
may waive their right to bring representative claims in
any forum, they retain their right to bring individual
PAGA claims in arbitration. To the extent we understand
PennyMac’s argument, we reject it.
Following Iskanian, several courts of appeal have
considered—and rejected—similar arguments, reasoning
that predispute agreements to arbitrate PAGA claims
are unenforceable because the employee who signs the
agreement is not then authorized to waive the state’s right
to a judicial forum. (Tanguilig v. Bloomingdale’s, Inc.

25a
Appendix B
(2016) 5 Cal.App.5th 665, 667-680, 210 Cal. Rptr. 3d 352
(Tanguilig) [PAGA claim cannot be arbitrated pursuant to
predispute arbitration agreement without state’s consent];
Betancourt v. Prudential Overall Supply (2017) 9 Cal.
App.5th 439, 445-448, 215 Cal. Rptr. 3d 344 (Betancourt)
[PAGA action not subject to arbitration, as state not
bound by employee’s predispute agreement]; Julian,
supra, 17 Cal.App.5th at pp. 869-873 [same].) The Julian
court, following Tanguilig and Betancourt, elaborated
on its reasoning as follows: “In Iskanian, our Supreme
Court explained that ‘”every PAGA action, whether
seeking penalties for Labor Code violations as to only one
aggrieved employee—the plaintiff bringing the action—or
as to other employees as well, is a representative action
on behalf of the state.”’ [Citation.] A PAGA action is thus
ultimately founded on a right belonging to the state,
which—though not named in the action—is the real party
in interest. [Citation.] That is because PAGA does not
create any new substantive rights or legal obligations,
but ‘is simply a procedural statute allowing an aggrieved
employee to recover civil penalties—for Labor Code
violations—that otherwise would be sought by state labor
law enforcement agencies.’ [Citation.]” (Julian, supra, at
p. 871.)
The Julian court continued: “Ordinarily, when a
person who may act in two legal capacities executes an
arbitration agreement in one of those capacities, the
agreement does not encompass claims the person is
entitled to assert in the other capacity. [Citations.] That
rule reflects general principles regarding the significance
of legal capacities.” (Julian, supra, 17 Cal.App.5th at pp.
871-872.)

26a
Appendix B
The Julian court concluded: “Under the rule set
forth above, an arbitration agreement executed before
an employee meets the statutory requirements for
commencing a PAGA action does not encompass that
action. Prior to satisfying those requirements, an employee
enters into the agreement as an individual, rather than as
an agent or representative of the state. As an individual,
the employee is not authorized to assert a PAGA claim;
the state—through LWDA—retains control of the right
underlying any PAGA claim by the employee. Thus, such
a predispute agreement does not subject the PAGA claim
to arbitration. [Citations.] For that reason, enforcing
any such agreement would impair PAGA’s enforcement
mechanism.” (Julian, supra, 17 Cal.App.5th at p. 872.)
We agree with the reasoning in Julian and adopt its
analysis as our own. Following Julian, we conclude that
the arbitration agreement does not encompass the PAGA
claim. (Julian, supra, 17 Cal.App.5th at p. 871.) The
record establishes that Smigelski executed the employee
agreement as a condition of his employment in November
2014, before he satisfied the statutory requirements for
bringing a PAGA claim, which occurred sometime in
October 2015. (Former § 2699.3, subd. (a)(2)(A).) Prior
to the time he satisfied those requirements, Smigelski
was not authorized to assert a PAGA claim as an agent of
the state, which retained control of the right underlying
the claim. (See Arias, supra, 46 Cal.4th at pp. 980-981;
Julian, supra, at p. 872.) Because Smigelski entered
the arbitration agreement as an individual, and not as
an agent or representative of the state, the agreement
cannot encompass the PAGA claim, which relies on the

27a
Appendix B
right to recover penalties then belonging to the state.
(Julian, supra, at p. 872; see also Betancourt, supra,
9 Cal.App.5th at p. 448.) It follows that any predispute
agreement to arbitrate individual PAGA claims was
ineffective. (Tanguilig, supra, 5 Cal.App.5th at p. 680
[“the right to litigate a PAGA claim in court is not subject
to predispute waiver—with respect to an ‘individual’ or
a group claim—by an individual employee pursuant to a
private employment arbitration agreement”].)
These authorities lead us to reject PennyMac’s
apparent argument that the arbitration agreement can
or should be viewed as requiring a waiver of the right to
bring a representative PAGA action in any forum, on the
one hand, while preserving the right to bring an individual
PAGA claim in arbitration, on the other. In the absence of
any enforceable agreement to arbitrate individual PAGA
claims, the arbitration agreement can only be viewed as
requiring a complete waiver of the right to bring PAGA
claims. As we have discussed, such waivers are invalid
under Iskanian.
E. The PAGA Waivers Are Not Severable
Hav i ng concluded t hat t he PAGA wa iver i s
unenforceable, we must next determine whether the
waiver is severable from the rest of the arbitration
agreement. (Securitas Security Services USA, Inc. v.
Superior Court (2015) 234 Cal.App.4th 1109, 1124, 184 Cal.
Rptr. 3d 568 (Securitas).) PennyMac argues the waiver
is severable; Smigelski maintains the waiver renders the
entire arbitration agreement unenforceable. We agree
with Smigelski.

28a
Appendix B
The arbitration agreement contains two provisions
dealing with severability. We begin with the employee
agreement. The employee agreement, which contains a
PAGA waiver, provides, “If any provision of the MAP
is found unenforceable, that provision may be severed
without affecting this agreement to arbitrate.” The
employee agreement does not authorize severance of
unenforceable terms in the employee agreement itself.
Thus, the employee agreement does not authorize
severance of the PAGA waiver found within the employee
agreement. The MAP, which contains a separate PAGA
waiver, provides that “the Arbitrator or a court may sever
any part of the MAP procedures that do not comport
with the [FAA].” Here, however, the PAGA waivers
fail to comport with state law, not the FAA. Reading
the arbitration agreement as a whole, and applying the
principle that specific language controls general language
(Civ. Code, § 3534), we conclude that the parties only
intended to sever unenforceable provisions from the
MAP, and then only on the ground that the unenforceable
provision fails to comport with the FAA. (Kanno v. Marwit
Capital Partners II, L.P. (2017) 18 Cal.App.5th 987, 1017,
227 Cal. Rptr. 3d 334 [“a specific provision of a contract
controls over a general provision to the extent there is an
inconsistency”].) Applying the maxim expressio unius est
exclusio alterius, we further conclude that the parties did
not intend to sever any other unenforceable provisions
from the arbitration agreement. (Cf. Stephenson v. Drever
(1997) 16 Cal.4th 1167, 1175, 69 Cal. Rptr. 2d 764, 947 P.2d
1301 [under maxim expressio unius est exclusio alterius,
where parties’ contract expressly provided that certain
consequences would flow from termination of plaintiff’s

29a
Appendix B
employment, this tended to negate inference that parties
also intended another consequence to flow from the same
event].)
PennyMac argues that other provisions of the
arbitration agreement—specifically, the provision stating
that “specific MAP procedures or AAA Rules may be
modified from time to time as required by applicable
law”—evince “an intention to have any unenforceable
provisions or terms excised in order to maintain the
enforceability of the heart of the arbitration agreement—
i.e.[,] the mutual obligation to use arbitration as the
exclusive forum in which to resolve any employment
relate[d] disputes.” But PennyMac’s argument ignores the
arbitration agreement’s specific severability provisions,
which are the clearest expression of the parties’ intent
with respect to severability. (In re Tobacco Cases I
(2010) 186 Cal.App.4th 42, 47, 111 Cal. Rptr. 3d 313 [the
parties’ expressed objective intent, not their unexpressed
subjective intent, governs].)
PennyMac also argues that a proper severability
analysis would focus, not on the severability provisions in
the arbitration agreement, but the objects of the contract.
(See Civ. Code, § 1599 [contract with “several distinct
objects” may be void as to an unlawful one and valid as to a
lawful one].) We disagree. As the trial court appropriately
recognized, “‘the rule relating to severability of partially
illegal contracts is that a contract is severable if the court
can, consistent with the intent of the parties, reasonably
relate the illegal consideration on one side to some specified
or determinable portion of the consideration on the other

30a
Appendix B
side.’” (Securitas, supra, 234 Cal.App.4th at p. 1126.)
Here, as we have discussed, the terms of the arbitration
agreement evince an intention to limit severability to
circumstances not present here. Following Securitas, we
conclude that the terms of the arbitration agreement—
which we must rigorously enforce—preclude severance.
(Id. at p. 1125; see also American Exp. Co v. Italian Colors
Restaurant (2013) 570 U.S. 228, 233, 133 S. Ct. 2304, 186
L. Ed. 2d 417 [“courts must ‘rigorously enforce’ arbitration
agreements according to their terms”].)
PennyMac argues Franco v. Arakelian Enterprises,
Inc. (2015) 234 Cal.App.4th 947, 184 Cal. Rptr. 3d 501
(Franco III), is controlling and compels severance. Franco
III, though factually similar, is distinguishable. There, the
plaintiff, a truck driver, filed an initial complaint alleging
a mix of PAGA and non-PAGA claims. (Id. at pp. 951952.) The defendant filed a petition to compel arbitration
pursuant to a “mutual arbitration policy” that appears to
have contained the same provisions as the MAP in our case.
(Id. at pp. 952-953.) The trial court granted the motion,
and the appellate court reversed, holding that the class
action waiver in the MAP was unenforceable. (Franco v.
Athens Disposal Co., Inc. (2009) 171 Cal.App.4th 1277,
1282, 90 Cal. Rptr. 3d 539 (Franco I).) Following an
unsuccessful petition for certiorari to the U.S. Supreme
Court, the matter returned to the trial court, where the
defendant filed a second petition to compel arbitration,
relying, again, on the MAP. (Franco III, supra, at p.
954.) The second petition to compel arbitration argued
that the authorities forming the basis for the appellate
court’s decision in Franco I had been overruled by the

31a
Appendix B
U.S. Supreme Court in Stolt-Nielsen S.A. v. Animal Feeds
International Corp. (2010) 559 U.S. 662, 130 S. Ct. 1758,
176 L. Ed. 2d 605 (Stolt-Nielsen), rendering the MAP
enforceable. (Franco III, supra, at p. 954.) The trial court
denied the petition, and the defendant appealed again,
arguing that Stolt-Nielsen and Concepcion overruled
Gentry, on which Franco I relied. (Id. at p. 955.) The
appellate court affirmed. (Ibid.) Our Supreme Court
granted review and remanded for reconsideration in light
of Iskanian. (Franco, III, supra, at p. 951.)
Following Iskanian, the Franco III court concluded,
“the MAP’s waivers of Franco’s right to pursue nonPAGA claims as a class representative are enforceable,
precluding the prosecution of those claims in any forum;
however Franco’s purported waiver of his right to
prosecute the statutory claims afforded by the PAGA
is unenforceable, and his PAGA claims are not subject
to arbitration.” (Franco III, supra, 234 Cal.App.4th at
p. 957.) The plaintiff asked the court to find the MAP
unenforceable on the ground of unconscionability. (Id. at
p. 965.) The court declined, reasoning that the central
purpose of the MAP was not tainted with illegality and
could not be said to have been drafted with an intention
to thwart the policy announced in Iskanian, which was
decided some 10 years after the MAP was implemented.
(Ibid.) Franco III does not help PennyMac.
Although the Franco III court appears to have
considered the same MAP, the court does not appear to
have considered the arbitration agreement’s severability
provisions, as the plaintiff in that case does not

32a
Appendix B
appear to have relied on them. Instead, the plaintiff in
Franco III argued that the arbitration agreement was
unconscionable, an argument Smigelski does not advance.
(Franco III, supra, 234 Cal.App.4th at p. 965.) Though
Franco III may compel the conclusion that the MAP is not
unconscionable, that question is not before us. As the trial
court correctly recognized, Franco III does not address
the severability provisions in the arbitration agreement,
and cannot be viewed as controlling on the dispositive
question of severance. (Ulloa v. McMillin Real Estate
&Mortgage, Inc. (2007) 149 Cal.App4.th 333, 340 [“‘“It is
axiomatic that cases are not authority for propositions not
considered”’”].) Nothing in Franco III causes us to doubt
our conclusion that the severability provisions preclude
enforcement of the arbitration agreement as a whole. If
anything, Franco III supports our conclusion that the
arbitration agreement requires employees to waive their
PAGA claims, and therefore runs afoul of Iskanian.
(Franco III, supra, at p. 963.)
Doubling down on Franco III, PennyMac argues the
trial court ignored “controlling precedent” in refusing
to compel arbitration of Smigelksi’s non-PAGA claims.
Again, Franco III is distinguishable. There, the appellate
court reversed the order denying the petition to compel
arbitration and remanded with directions to grant the
petition with respect to the plaintiff’s non-PAGA claims
and stay the PAGA claims. (Franco III, supra, 234 Cal.
App.4th at pp. 965-966.) That outcome was appropriate
because the arbitration agreement as a whole was found
to be enforceable. As we have discussed, that finding was
limited to a conclusion that the MAP is not unconscionable.
(Id. at p. 965.) Here, by contrast, we have concluded that

33a
Appendix B
the arbitration agreement as a whole is unenforceable
by virtue of the severability provisions. Because the
arbitration agreement has been found to be unenforceable,
PennyMac cannot compel arbitration of any of Smigelski’s
causes of action, including causes of action that would
otherwise be arbitrable. That PennyMac must now litigate
non-PAGA causes of action is the result, not of the trial
court’s error, but its own drafting decisions.
F. The Arbitration Agreement Does Not Delegate
Questions of Arbitrability to the Arbitrator
Next, PennyMac argues the trial court erred in
adjudicating the arbitrability of the parties’ dispute
because the arbitration agreement delegates such
determinations to the arbitrator. We are not persuaded.
At the outset, we reiterate that a PAGA case “is not a
dispute between an employer and an employee arising out
of their contractual relationship. It is a dispute between
an employer and the state.” (Iskanian, supra, 59 Cal.4th
at p. 386.) Unlike a usual employment case, “the state
is the real party in interest.” (Id. at p. 387.) As a result,
the fact that Smigelski may have agreed to delegate
questions of arbitrability to an arbitrator is irrelevant.
(See Betancourt, supra, 9 Cal.App.5th at p. 448 [“The fact
that Betancourt, in 2006, agreed to arbitrate his private
employment disputes with Prudential is not relevant.
Betancourt’s lawsuit is a PAGA claim, on behalf of the
state. The state is not bound by Betancourt’s predispute
arbitration agreement”].) It is therefore unnecessary
for us determine whether the parties agreed to delegate
questions of arbitrability to the arbitrator.

34a
Appendix B
But even if we perceived a need to consider PennyMac’s
argument, we would reject it. “[C]ourts presume that
the parties intend courts, not arbitrators, to decide
. . . disputes about ‘arbitrablity[,]’ . . . such as ‘whether
the parties are bound by a given arbitration clause,’ or
‘whether an arbitration clause in a concededly binding
contract applies to a particular type of controversy.’” (BG
Group, PLC v. Republic of Argentina (2014) 572 U.S. 25,
34, 134 S. Ct. 1198, 188 L. Ed. 2d 220, quoting Howsam v.
Dean Witter Reynolds, Inc. (2002) 537 U.S. 79, 84, 123 S.
Ct. 588, 154 L. Ed. 2d 491.) However, “parties can agree
to arbitrate ‘gateway’ questions of ‘arbitrability,’ such as
whether the parties have agreed to arbitrate or whether
their agreement covers a particular controversy.” (Rent-ACenter, West, Inc. v. Jackson (2010) 561 U.S. 63, 68-69, 130
S. Ct. 2772, 177 L. Ed. 2d 403.) “Just as the arbitrability of
the merits of a dispute depends upon whether the parties
agreed to arbitrate that dispute, . . . so the question ‘who
has the primary power to decide arbitrability’ turns upon
what the parties agreed about that matter.” (First Options
of Chicago, Inc. v. Kaplan (1995) 514 U.S. 938, 943, 115 S.
Ct. 1920, 131 L. Ed. 2d 985.) “Although threshold questions
of arbitrability are ordinarily for courts to decide in the
first instance under the FAA [citation], the ‘[p]arties to
an arbitration agreement may agree to delegate to the
arbitrator, instead of a court, questions regarding the
enforceability of the agreement.’” (Pinela v. Neiman
Marcus Group (2015) 238 Cal.App.4th 227, 239, 190 Cal.
Rptr. 3d 159.)
“There are two prerequisites for a delegation clause
to be effective. First, the language of the clause must be
clear and unmistakable. [Citation.] Second, the delegation

35a
Appendix B
must not be revocable under state contract defenses
such as fraud, duress, or unconscionability.” (Tiri v.
Lucky Chances, Inc. (2014) 226 Cal.App.4th 231, 242, 171
Cal. Rptr. 3d 621; see also Rent-A-Center, West, Inc. v.
Jackson, supra, 561 U.S. at pp. 68, 69, fn. 1.) The “clear
and unmistakable” test reflects a “heightened standard
of proof” that reverses the typical presumption in favor
of the arbitration of disputes. (Ajamian, supra, 203 Cal.
App.4th at p. 787.)
Here, the arbitration agreement incorporates the
AAA Employment Rules, which provide, in pertinent
part, “The arbitrator shall have the power to rule on his
or her own jurisdiction, including any objections with
respect to the existence, scope or validity of the arbitration
agreement.” PennyMac argues the incorporation of
the AAA Employment Rules demonstrates the parties
intended to submit questions of arbitrability to the
arbitrator. Different courts have reached different
conclusions as to whether the incorporation of arbitral
rules serves as clear and unmistakable evidence of
an intent to delegate questions of arbitrability to an
arbitrator. (See, e.g., Greenspan v. LADT, LLC (2010)
185 Cal.App.4th 1413, 1442, 111 Cal. Rptr. 3d 468 [in
a commercial dispute between a trust and affiliated
companies, an arbitration agreement incorporating
JAMS rules constituted clear and convincing evidence of
the parties’ intent to delegate power to the arbitrator to
decide gateway issues of arbitrability]; Dream Theater,
Inc. v. Dream Theater (2004) 124 Cal.App.4th 547, 557,
21 Cal. Rptr. 3d 322 [in a contract dispute, arbitration
agreement incorporating AAA Commercial Arbitration
Rules constituted “clear and unmistakable evidence of the

36a
Appendix B
intent that the arbitrator will decide whether a Contested
Claim is arbitrable”]; but see Ajamian, supra, 203 Cal.
App.4th at p. 790 [expressing doubts as to whether mere
reference to AAA Employment Rules constitutes clear
and unmistakable evidence of intent in the employment
context].) We need not resolve this difference of opinion,
as the arbitration agreement indicates that questions of
arbitrability may be decided by the arbitrator or a court.
As noted, the MAP provides, “the Arbitrator or a
court may sever any part of the MAP procedures that do
not comport with the [FAA].” (Italics added.) Faced with
this language, the trial court concluded—and we agree—
that the arbitration agreement reflects an intent that “the
[c]ourt itself may decide questions of arbitrability, or at
a minimum[,] create ambiguity on that point.” We would
therefore reject PennyMac’s arbitrability argument, were
we to address it.
G. The FAA Does Not Preempt State Law Rules
Applicable To PAGA Claims
Finally, PennyMac argues the FAA requires us to
enforce the parties’ purported agreement to arbitrate
PAGA claims. We assume for the sake of argument
that PennyMac has carried its burden of establishing
the existence of such an agreement. Even so assuming,
PennyMac’s argument lacks merit.
As previously discussed, the Iskanian court held
that the state law rule against PAGA waivers does not
frustrate the objectives of the FAA because “the FAA
aims to ensure an efficient forum for the resolution of

37a
Appendix B
private disputes, whereas a PAGA action is a dispute
between an employer and the state Agency.” (Iskanian,
supra, 59 Cal.4th at p. 384, emphasis omitted.) “Read
in its entirety, the Iskanian opinion clearly holds that
the state is the real party in interest in a PAGA claim
regardless of whether the claim is brought in an individual
or representative capacity. . . . For this reason, the FAA,
which is primarily concerned with private disputes, does
not preempt the state law bar against a private predispute
waiver of a PAGA claim.” (Tanguilig, supra, 5 Cal.App.5th
at p. 680; see also Franco III, supra, 234 Cal.App.4th
at p. 964 [“the FAA does not preempt California’s state
law rule precluding predispute waivers of enforcement
rights under the PAGA”].) Applying these authorities,
we conclude that PennyMac’s preemption argument, like
much of its appeal, is foreclosed by Iskanian.
III. DISPOSITION
The orders denying PennyMac’s petitions to compel
arbitration are affirmed. Smigelski is awarded his costs
on appeal. (Cal. Rules of Court, rule 8.278(a)(1) & (2).)

We concur:
/s/ 			
HULL, Acting P. J.
/s/ 			
ROBIE, J.

/s/			
RENNER, J.

38a
APPENDIX C —Appendix
MINUTECORDER OF THE
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF SACRAMENTO, DATED APRIL 22, 2016
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SACRAMENTO
GORDON D SCHABER COURTHOUSE
MINUTE ORDER
DATE: 04/22/2016 TIME: 02:00:00 PM

DEPT: 53

JUDICIAL OFFICER PRESIDING: David Brown
CLERK: E. Brown
REPORTER/ERM:
BAILIFF/COURT ATTENDANT
CASE NO: 34-2015-00186855-CU-OE-GDS
CASE INIT.DATE: 11/17/2015
CASE TITLE: Richard Smigelski in his representative
capacity vs. Pennymac Financial Services Inc
CASE CATEGORY: Civil - Unlimited
EVENT TYPE: Motion for Reconsideration - Civil Law
and Motion
Nature of Proceeding: Ruling on Submitted Matter
(Motion for Reconsideration Re: Compel Arbitration)
taken under submission on 4/19/2016

39a
Appendix C
TENTATIVE RULING
Defendants Private National Mortgage Acceptance
Company, LLC, Penny Mac Financial Services, and
PennyMac Mortgage Investment Trust’s (“Defendants”)
motion for reconsideration “re: Defendants’ Petition to
Compel Arbitration and Stay Action” is denied.
In the instant action, Plaintiff Richard Smigelski initially
asserted a single representative cause of action under
the Private Attorney General Act (“PAGA”), Labor
Code § 2699 on behalf of the State and other aggrieved
employees for alleged Labor Code violations. Plaintiff
did not assert any individual claims and only sought an
award of penalties pursuant to PAGA. Defendants moved
to compel arbitration pursuant to its Mutual Arbitration
Policy (“MAP”) and an Employee Agreement to Arbitrate
(“Arbitration Agreement”) and the FAA. On March 3,
2016, after having taken Defendants’ petition to compel
arbitration and stay action under submission, the Court
affirmed its tentative ruling denying the petition. A formal
order was entered on March 11, 2016. In denying the
petition, the Court found that the Arbitration Agreement
and the MAP contained provisions prohibiting PAGA
claims in arbitration which violated public policy and was
unenforceable. Critically, the Court found that neither the
Arbitration Agreement nor the MAP can be saved through
severance of any provision and that as a result, “the entire
Arbitration Agreement and MAP are unenforceable.
On March 10, 2016, Plaintiff filed a first amended complaint
adding individual and putative class claims for unpaid

40a
Appendix C
overtime under Labor Code §§ 510 and 1194, penalties
based on the failure to provide accurate wage statements
under Labor Code § 226 and waiting time penalties under
Labor Code § 203.
Defendants seek reconsideration on the basis that the
Court was not able to consider these new claims in the
FAC as part of the original ruling because the complaint
only alleged the PAGA claim. It argues that these new
claims fall squarely within the terms of the arbitration
agreement and had the FAC been filed before the Court
ruled, it should have granted the petition to compel. It
argues that the Court should vacate its previous ruling
and grant their petition, or alternatively, compel Plaintiff
to arbitrate his new claims and stay the PAGA claim to
the extent it is deemed inarbitrable.
When an application for an order has been made to a judge,
or to a court, and refused in whole or in part, or granted,
or granted conditionally, or on terms, any party affected
by the order may, within 10 days after service upon the
party of written notice of entry of the order and based
upon new or different facts, circumstances, or law, make
application to the same judge or court that made the order,
to reconsider the matter and modify, amend, or revoke the
prior order. The party making the application shall state
by affidavit what application was made before, when and to
what judge, what order or decisions were made, and what
new or different facts, circumstances, or law are claimed
to be shown. (CCP § 1008.)

41a
Appendix C
Here, the Court finds that Plaintiff’s act of filing the
FAC containing new claims is not a new or different
fact or circumstance which would allow the Court to
reconsider its previous order denying Defendants’ petition
to compel arbitration. Indeed, to that end, it must be
remembered that the Court in denying the petition found
that the MAP and the Arbitration Agreement contained
provisions that violated public policy and could not be
severed thus rendering the entire MAP and Arbitration
Agreement unenforceable. It is true that the Court’s
ruling extensively discussed the fact that Plaintiff was
only asserting a PAGA claim at the time. But the Court
specifically found that even so, provisions prohibiting
arbitration of PAGA claims could not be severed from
the agreements and the agreements as a whole were
therefore unenforceable. This of course would preclude
arbitration of not only PAGA claims, but any claims
whatsoever, including the new individual and class claims
set forth in the FAC. Indeed, the FAC specifically alleges
that “the Sacramento Superior Court has declared the
arbitration agreement signed by Plaintiff unenforceable
in its entirety.” (FAC ¶ 13.)
In reality the FAC, filed in direct response to the Court’s
ruling on Defendants’ petition to compel arbitration has
no bearing on the Court’s ruling. That is, while the claims
asserted in this action have expanded, the MAP and the
Arbitration Agreement themselves, which contained the
provisions deemed to be invalid and which the Court found
were unenforceable in their entirety have not changed.
The FAC could not in any way alter the Court’s analysis
regarding the interpretation and/or the enforceability of

42a
Appendix C
the MAP and the Arbitration Agreement. The FAC was
specifically filed in reliance on the Court’s order denying
the petition to compel arbitration and is not a new fact or
circumstance for purposes of CCP § 1008. Moreover, the
motion argues that any invalid PAGA waiver cannot be
the basis for refusing arbitration of the new class claims
because the waiver cannot invalidate the entire agreements
and thus prevent arbitration of the class claims. In this
regard, Defendants essentially attempt to re-argue that
the inclusion of the PAGA waiver does not invalidate the
agreements and that the Court was essentially wrong in
concluding otherwise. But a disagreement with the Court’s
analysis is not a new or different fact or circumstance.
Absent such new or different facts or circumstances, the
Court lacks jurisdiction to consider this motion. (Gilberd
v. AC Transit (1995) 32 Cal. App.4th 1494, 1500.) The
motion is denied on this basis alone.
In any event, even if the Court were to find that the FAC
was a new or different fact or circumstance for purposes
of CCP § 1008, it would simply affirm its previous order
denying Defendants’ petition to compel arbitration.
Again, it bears repeating that when the Court denied
Defendants’ petition, it found that the MAP and Arbitration
Agreements that “the entire Arbitration Agreement and
MAP are unenforceable.” Nothing has changed which
could cause the Court to render any different finding. The
language of the agreements is the same. It is of course
true that if the invalid PAGA provision could be severed
from the agreements, than Plaintiff’s individual and class
claims could be compelled to arbitration. (E.g. Franco v.
Arkelian Enterprises (2015) 234 Cal.App.4th 947, 965.)

43a
Appendix C
In making their argument Defendants essentially argue
that the Court incorrectly determined that the PAGA
provision could not be severed. In previously finding that
the invalid PAGA waiver could not be severed from the
agreements, the Court focused mainly on the language
in the agreements given the parties’ intent controls. The
Court’s reasoning was as follows:
“Finally, neither the Arbitration Agreement nor the MAP
can be saved through severance of any provision. Indeed,
“the rule of severability of partially illegal contracts is
that a contract is severable if the court can, consistent
with the intent of the parties, reasonably relate the illegal
consideration on one side to some specified or determinable
portion of consideration on the other side.” (Securitas
Security Services USA, Inc., supra, 234 Cal.App.4th at
1125.) Here while the Arbitration Agreement contains
an offending provision requiring Plaintiff to forego
any representative claims, that Agreement specifically
states that if “any provision of the MAP is found to be
unenforceable, that provision may be severed without
affecting this agreement to arbitrate.” (Defendants’
Exhibit 3.) The Arbitration Agreement itself does not
contain a provision allowing for severance. This express
language reflects an intent not to sever any portion of the
Arbitration Agreement and striking the provision would
conflict with the parties’ intent. (Id. at 1126.) Further the
MAP itself only provides for severance of any provision
that does not comport with the FAA. (Defendants’ Exh.
1, p.3, ¶ 3.) But here the waiver provisions do not comport
State law, and thus severance of the provision in the
MAP would also conflict with the parties’ intent. As a

44a
Appendix C
result, the entire Arbitration Agreement and MAP are
unenforceable.” (March 11, 2016 order)
Defendants are correct that one of the basis on which
the Court distinguished Franco, that Plaintiff only
asserted PAGA claims, is no longer relevant given the
FAC which now asserts non-PAGA claims. This does not
affect the Court’s decision regarding the enforceability
given the main focus was on the express language of the
agreements which reflected an intent not to sever the
PAGA waiver. While the Court’s previous ruling also
extensively focused on the FAC that the complaint did
not assert any other claims other than PAGA claims,
the Court did not, as Defendants suggest in reply, only
find that the arbitration agreements were unenforceable
in their entirety only with respect to the PAGA claim
asserted in the complaint. When the Court found that the
MAP and the arbitration agreement were unenforceable,
it found they were unenforceable in their entirety, with no
limitations. That Plaintiff has now asserted new claims in
the FAC does not somehow change the unenforceability of
the agreements and render them enforceable. Again, that
finding was premised on the express contractual language
of the agreements which reflected an intent not to sever
the invalid PAGA waiver.
Defendants are correct that one of the basis on which
the Court distinguished Franco, that Plaintiff only
asserted PAGA claims, is no longer relevant given the
FAC which now asserts non-PAGA claims. This does not
affect the Court’s decision regarding the enforceability
given the main focus was on the express language of the

45a
Appendix C
agreements which reflected an intent not to sever the
PAGA waiver. While the Court’s previous ruling also
extensively focused on the FAC that the complaint did
not assert any other claims other than PAGA claims,
the Court did not, as Defendants suggest in reply, only
find that the arbitration agreements were unenforceable
in their entirety only with respect to the PAGA claim
asserted in the complaint. When the Court found that the
MAP and the arbitration agreement were unenforceable,
it found they were unenforceable in their entirety, with no
limitations. That Plaintiff has now asserted new claims in
the FAC does not somehow change the unenforceability of
the agreements and render them enforceable. Again, that
finding was premised on the express contractual language
of the agreements which reflected an intent not to sever
the invalid PAGA waiver.
Defendants also argue that this situation is akin to Franco
in that there is no evidence that the agreements were
drafted to thwart public policy because the MAP was
drafted six years before Iskanian and Iskanian was not
yet final because there was a petition for certiorari pending
in the US Supreme Court until two months after Plaintiff
signed the arbitration agreement. But again, the critical
analysis with the specific language in the agreements
which set forth when severance was permitted.
Perhaps realizing this, Defendants finally argue that
severance is not necessary to enforce the MAP and the
Arbitration Agreement as to the new individual and
putative class claims in the FAC. Defendants argue that
in Iskanian while the California Supreme Court found

46a
Appendix C
that the parties arbitration agreement contained an
unenforceable waiver of PAGA claims, it “enforced the
parties’ agreement as to the class claims alleged by the
plaintiff, and it did so without requiring formal severance
of the unenforceable term in the parties’ agreement.”
(Mot. 11:16-18.) But Iskanian found that the Court of
Appeal improperly enforced an arbitration agreement
that the contained both class action and PAGA waiver.
While the class action waiver was valid, the PAGA was
not and that matter was remanded so that the lower
courts could address how the arbitration should proceed
in light of such finding. (Iskanian, supra, 59 Cal.4th at
391-392.) Iskanian did not appear to specifically address
the question of severance, much less in the context of the
specific contractual language at issue here, and find that
an arbitration may proceed pursuant to an agreement that
contains an invalid PAGA waiver and a valid class action
waiver by simply ignoring, as opposed to severing the
invalid provision. Moreover, case law following Iskanian
makes clear that where it has been determined that
a PAGA waiver is invalid in an arbitration agreement
which also contains a valid class action waiver, the proper
analysis is to determine whether the PAGA waiver can
be severed so that the agreement can be enforced. (E.g.,
Securitas Security Services USA, Inc., supra, 234 Cal.
App.4th at 1124.). Here the Court has already concluded
that it cannot be. Defendants make no argument which
would show, contrary to what the Court found, that the
plain language of the agreement would allow for severance
in accordance with the parties’ intent.

47a
Appendix C
In sum the motion for reconsideration is denied on the
basis that Defendants failed to establish any new or
different facts or circumstances pursuant to CCP § 1008
based on the filing of the FAC and in any event, even if the
FAC was such a fact or circumstances, the Court would
simply affirm its original ruling denying the petition to
compel arbitration.
The minute order is effective immediately. No formal
order pursuant to CRC Rule 3.1312 or other notice is
required.
COURT RULING
The matter was argued and submitted.
Having taken the matter under submission on 4/19/2016,
the Court now rules as follows:
SUBMITTED MATTER RULING
The Court affirmed the tentative ruling.

48a
APPENDIX D —Appendix
MINUTEDORDER OF THE
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF SACRAMENTO, DATED APRIL 22, 2016
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SACRAMENTO
GORDON D SCHABER COURTHOUSE
MINUTE ORDER
DATE: 04/22/2016 TIME: 09:00:00 AM DEPT: 53
JUDICIAL OFFICER PRESIDING: David Brown
CLERK: E. Brown
REPORTER/ERM:
BAILIFF/COURT ATTENDANT:
CASE NO: 34-2015-00186855-CU-OE-GDS CASE INIT.
DATE: 11/17/2015
CASE TITLE: Richard Smigelski in his representative
capacity vs. Pennymac Financial Services Inc
CASE CATEGORY: Civil - Unlimited
EVENT TYPE: Petition to Compel Arbitration - Civil
Law and Motion
Nature of Proceeding: Ruling on Submitted Matter
(Petition to Compel Arbitration) taken under submission
on 4/19/2016

49a
Appendix D
TENTATIVE RULING
Defendants Private National Mortgage Acceptance
Company, LLC, Penny Mac Financial Services, and
PennyMac Mortgage Investment Trust’s (“Defendants”)
petition to compel arbitration is denied.
Defendants previously unsuccessfully sought to compel
arbitration of Plaintiff’s complaint. They now seek to
compel arbitration of Plaintiffs’ First Amended Complaint.
The Court’s ruling denying Defendants’ motion for
reconsideration “re: Defendants’ Petition to Compel
Arbitration and Stay Action” effectively disposes of the
instant motion. Again, the Court noted in connection with
that ruling that the FAC did not constitute new or different
facts or circumstances which would allow the Court to
reconsider the original ruling denying Defendants’ first
petition and in any event, the Court found the arbitration
agreements invalid and unenforceable in their entirety.
The inclusion of individual and putative class claims cannot
change that result. Thus, even though a class action waiver
is valid and could be subject to the arbitration agreements,
the invalidity and unenforceability of the agreements
precludes arbitration of any claims.
To the extent that Defendants argue, as they did in
connection with the original petition, for example, that
the arbitration agreements do not preclude arbitration
of PAGA claims, or that the rule precluding the waiver of
PAGA claims is not pre-empted by the FAA, or that the
question or abritrability must be decided by the arbitrator,
these arguments are rejected. Even if the Court were to

50a
Appendix D
find that a successive petition were permitted as a result
of the FAC being filed, the Court extensively addressed
and rejected these arguments in denying the original
petition and the Court simply rejects the arguments for
the reasons previously discussed. The Court would also
note that any new argument attempting to demonstrate
that PAGA claims were not waived or that the Court
could sever any PAGA waiver found in the agreements
are inappropriate. Those arguments were fully addressed
in the Court’s original ruling and any attempt to reargue
those specific points is nothing more than an inappropriate
motion for reconsideration.
The minute order is effective immediately. No formal
order pursuant to CRC Rule 3.1312 or other notice is
required.
COURT RULING
The matter was argued and submitted.
Having taken the matter under submission on 4/19/2016,
the Court now rules as follows:
SUBMITTED MATTER RULING
The Court affirmed the tentative ruling.

51a
APPENDIX E —Appendix
MINUTEEORDER OF THE
SUPERIOR COURT OF CALIFORNIA, COUNTY
OF SACRAMENTO, DATED MARCH 3, 2016
CASE TITLE: Richard Smigelski in his representative
capacity vs. Pennymac Financial Services Inc
CASE NO: 34-2015-00186855-CU-OE-GDS
Having taken the matter under submission on 2/29/2016,
the Court now rules as follows:
SUBMITTED MATTER RULING
The Court affirms the Tentative Ruling as follows:
Defendants Private National Mortgage Acceptance
Company, LLC, PennyMac Financial Services, and
PennyMac Mortgage Investment Trust’s (“Defendants”)
petition to compel arbitration is denied.
In the instant action, Plaintiff Richard Smigelski asserts
a single representative cause of action under the Private
Attorney General Act (“PAGA”), Labor Code § 2699 on
behalf of the State and other aggrieved employees for
alleged Labor Code violations. Plaintiff does not assert
any individual claims and only seeks an award of penalties
pursuant to PAGA. Defendants move to compel arbitration
pursuant to the FAA.
Defendants argue that Plaintiff must arbitrate this action
pursuant to its Mutual Arbitration Policy (“MAP”) and
an Employee Agreement to Arbitrate (“Arbitration

52a
Appendix E
Agreement”) and the FAA. The Arbitration Agreement
states that the employee agrees that “it is my obligation
to make use of the MAP and to submit to final and binding
arbitration any and all claims and disputes that are related
in any way to my employment....I understand that final and
binding arbitration will be the sole and exclusive remedy
for any such claim or dispute ... and that by agreeing to
use arbitration to resolve my dispute, both PennyMac
and I agree to forego any right we may have had to a
jury trial on issued covered by the MAP, and forego any
right to bring claims on a representative or class basis.”
(Defendants’ Exh. 3.) The Arbitration Agreement further
states that “[i]f any provision of the MAP is found to be
unenforceable, that provision may be severed without
affecting this agreement to arbitrate.” (Id.)
The MAP provides that “this mutual agreement to
arbitrate claims also means that both you and PennyMac
forego and waive any right to join or consolidate claims in
arbitration with others, or to make claims in arbitration as
a representative or as a member of a class or in a private
attorney general capacity.” (Id. Exh. 1, p. 1, ¶ 4, p. 2, ¶ 1.)
The MAP also provided that “no remedies available to you
individually ... will be forfeited.” (ld. p.2, ¶ 1.) The MAP
provides that “the Arbitrator or a court may sever any
part of the MAP procedures that do not comport with the
[FAA].) (Id. p. 3, ¶ 3.)
The Court first rejects the argument that Plaintiff’s
complaint alleges non-PAGA Labor Code claims which are
properly subject to arbitration. In this regard, Defendants
attempt to argue that Plaintiff has utilized artful pleading

53a
Appendix E
to characterize his claim as simply a PAGA claim seeking
civil penalties. They argue that part of the PAGA claim
is premised on an alleged violation of Labor Code § 558
and that he is seeking to recover unpaid wages on behalf
of the employees not simply penalties. They assert that
a Labor Code § 558 violation is not one of the violations
enumerated in PAGA (Labor Code § 2699.5.) But a PAGA
claim is not limited to the Labor Code sections listed in
Labor Code § 2699.5. Labor Code § 2699(a) specifically
states that “notwithstanding any other provision of law,
any provision of this code that provides for a civil penalty
to be assessed and collected by the [LWDA] .... may, as
an alternative, be recovered by an aggrieved employee on
behalf of himself and herself and other current and former
employees pursuant to the procedures specified in Labor
Code § 2699.3.” (Labor Code § 2699(a) [emphasis added].)
Labor Code § 2699.3 specifically provides procedures for
bringing PAGA claims not only for violations based on the
statutes listed in Labor Code § 2699.5, but also for statutes
that are not listed in § 2699.5. (Labor Code § 2699.3(a),
(c).) Moreover, case law recognizes that civil penalties for
a violation of Labor Code § 558 may be recovered in a
PAGA action. “[P]ursuant to section 558, subdivision (a),
‘any person acting on behalf of an employer who violates,
or causes to be violated’ a statute or wage order relating
to working hours is subject to a civil penalty, payable
to the affected employee, equal to the amount of any
underpaid wages. As noted earlier, the Legislature has
provided that aggrieved employees may under certain
circumstances maintain civil actions to recover such
penalties. (§ 2699, subd. (a).) (Reynolds v. Bennet (2005)
36 Cal.4th 1075, 1089.) “In our view the language of section

54a
Appendix E
558, subdivision (a), is more reasonably construed as
providing a civil penalty that consists of both the $50 or
$100 penalty amount and any underpaid wages, with the
underpaid wages going entirely to the affected employee
or employees as an express exception to the general
rule that civil penalties recovered in a PAGA action are
distributed 75 percent to the [LWDA] and 25 percent to
the aggrieved employees (§ 2699, subd. (i)). (Thurman
v. Bayshore Transit Management, Inc. (2012) 203 Cal.
App.4th 1112, 1145.) It is clear that the complaint at issue
here is solely a representative action under PAGA seeking
civil penalties despite any inclusion of a claim premised
on Labor Code § 558.
Moreover, it cannot be overlooked that Plaintiff’s reference
in the complaint to Labor Code § 558 which provides for
civil penalties for an employer who “violates a section of
this chapter or any provision regulating hours and days of
work in any order of the Industrial Welfare Commission”
is premised on violations of Labor Code § 510. (Comp. ¶ 18.)
Section 510 is expressly identified in Labor Code § 2699.5.
Thus the request for civil penalties under Labor Code
§ 558 is premised on substantive provisions enumerated
in PAGA. “[I[t is the request for civil penalties for an
alleged violation of a substantive statutory provision listed
in section 2699.5” that triggers the employee’s right to
bring an action under PAGA. (Caliber Bodyworks, Inc.
v. Superior Court (2005) 134 Cal.App.4th 365, 379, fn, 15.)
This is not a suit by which Plaintiff is seeking to circumvent
arbitration by raising a non-PAGA wage and hour claim
under the guise of PAGA. The fact that Plaintiff ’s

55a
Appendix E
complaint indicates that the statute of limitations for
a Labor Code § 558 is three years while the statute of
limitations for a PAGA claim is one year does not mean
that Plaintiff has alleged no PAGA claims. It is of course
true that Plaintiff cannot recover penalties on behalf of
the State, himself, or other employees beyond the PAGA
one year statute of limitations. But the pleading here only
asserts a representative PAGA claim and the prayer for
relief seeks only “an award of civil penalties pursuant to
PAGA” in addition to fees and costs and interest.
Given that the entire complaint seeks only civil penalties
under PAGA, the Court now examines whether arbitration
can be compelled. The Arbitration Agreement at issue
requires Plaintiff to “forego any right to bring claims
on a representative or class basis.” The MAP states that
“this mutual agreement to arbitrate claims also means
that both you and PennyMac ... waive any right to join or
consolidate claims in arbitration with others or to make
claims in arbitration as a representative or as a member
of a class or in a private attorney general capacity.”
Such language certainly includes a PAGA representative
action. “We conclude that where, as here, an employment
ag reement compels the waiver of representative
claims under PAGA, it is contrary to public policy and
unenforceable as a matter of state law.” (Iskanian v. CLS
Transportation Los Angeles, LLC (2014) 59 Cal.4th 348,
384.) While Defendants attempt to argue that the language
of the Arbitration Agreement and the MAP do not prohibit
PAGA claims in arbitration, and at most “representative”
is ambiguous, this is a strained argument at best. Indeed,
the language clearly states that the parties waive any right

56a
Appendix E
to make claims “as a representative” or “in a private
attorney general capacity.” There is no ambiguity in
the Arbitration Agreement or the MAP. PAGA claims
are prohibited in arbitration given that the employee
waives any right to make representative claims or claims
in a private attorney general capacity. Such a prohibition
violates public policy and is unenforceable. To the extent
any ambiguity exists, it is construed against Defendants
who drafted the documents. (Securitas Security Services
USA, Inc. v. Superior Court (2015) 234 Cal.App.4th 1109,
1126.)
While Defendants correctly argue that Iskanian is not a
per se ban on the arbitration of PAGA claims, Iskanian
is clear, that it is against public policy for an employment
agreement to deprive employees of the ability to bring a
PAGA action before any dispute arises. (Iskanian, supra,
at 382-384, 387.) The instant Arbitration Agreement/
MAP does just that. While Defendants fault Plaintiff
for failing to discuss the authority cited indicating that
PAGA claims are not inherently unsuited for arbitration,
even those cases held that a waiver of PAGA claims
is invalid under Iskanian. (E.g., Sakkab v. Luxottica
Retail N. Amer., Inc. (9th Cir. 2015) 803 F.3d 425, 440.)
While Sakkab noted that Iskanian prohibits the waiver
of representative PAGA claims but does not diminish the
parties’ freedom to select informal arbitration procedures
with respect to such claims, it made no determination
on that issue. Here, even if the Court were to properly
sever the impermissible waiver of the PAGA claims, there
is nothing in the subject arbitration agreements which
indicate any intent by Plaintiff and Defendants to agree

57a
Appendix E
to arbitrate representative PAGA claims. Indeed, the
agreements are simply between Plaintiff and Defendants
and there is nothing suggesting in any manner that the
parties contemplated the claims of non-parties such as
the LWDA on whose behalf the instant lawsuit is brought
would be subject to arbitration. The waiver language in
the agreements reflects the exact opposite. That is, the
agreements make clear that both parties forego their rights
to pursue representative actions in arbitration. Given such
language the Court would be hard pressed to find that
even severing the invalid waiver would allow Plaintiff’s
PAGA claim to proceed to arbitration, as doing so would
contravene the expressed intent of the parties. Rather
they have clearly agreed not to arbitrate such claims.
The “arbitration agreement gives us no basis to assume
that the parties would prefer to resolve a representative
PAGA claim through arbitration.” (Iskanian, supra, 59
Cal.4th at 391.) In any event, as discussed more fully below,
severance of the illegal provision is not proper.
Further, and contrary to Defendants’ arguments, the
rule precluding waiver of PAGA claims is not pre-empted
by the FAA. “Simply put, a PAGA claim lies outside the
FAA’s coverage because it is not a dispute between an
employer and an employee arising out of their contractual
relationship. It is a dispute between an employer and the
state, which alleges directly or indirectly or through its
agents-either the Agency or aggrieved employees-that
the employer has violated the Labor Code .... ‘every
PAGA action, whether seeking penalties for Labor Code
violations as to only one aggrieved employee-the plaintiff
bringing the action-or as to other employees as well, is a

58a
Appendix E
representative action on behalf of the state.”’ (Iskanian,
supra, 59 Cal.4th at 386-387 [emphasis in original].) “We
conclude that California’s public policy prohibiting waiver
of PAGA claims, whose sole purpose is to vindicate the
Agency’s interest in enforcing the Labor Code, does not
interfere with the FAA’s goal of promoting arbitration as a
forum for private dispute resolution.” (Id. at 388-389.) The
Court rejects Defendants’ attempt to argue that California
law is preempted by FAA. Indeed, while Defendants are
of course correct that PAGA itself does not expressly state
that such claims are exempt from arbitration, Iskanian
has expressly found that waivers such as the one in the
instant case are against public policy. Defendants’ attempt
to argue that the California Supreme Court’s decision in
Iskanian itself is preempted by FAA because that decision
outright precludes the arbitration of a particular claim is
rejected. This Court is clearly bound by Iskanian and is
certainly not free to find that the decision is preempted
by FAA. In any event, Iskanian does not preclude the
arbitration of a particular claim but rather precludes the
outright waiver of PAGA claim pre-dispute which is the
situation in the instant case.
Finally, neither the Arbitration Agreement nor the MAP
can be saved through severance of any provision. Indeed,
“the rule of severability of partially illegal contracts is
that a contract is severable if the court can, consistent
with the intent of the parties, reasonably relate the illegal
consideration on one side to some specified or determinable
portion of consideration on the other side.” (Securitas
Security Services USA, Inc., supra, 234 Cal.App.4th at
1125.) Here while the Arbitration Agreement contains

59a
Appendix E
an offending provision requiring Plaintiff to forego
any representative claims, that Agreement specifically
states that if “any provision of the MAP is found to be
unenforceable, that provision may be severed without
affecting this agreement to arbitrate.” (Defendants’
Exhibit 3.) The Arbitration Agreement itself does not
contain a provision allowing for severance. This express
language reflects an intent not to sever any portion of the
Arbitration Agreement and striking the provision would
conflict with the parties’ intent. (Id. at 1126.) Further the
MAP itself only provides for severance of any provision
that does not comport with the FA A. (Defendants’
Exh. 1, p.3, ¶ 3.) But here the waiver provisions do not
comport State law, and thus severance of the provision
in the MAP would also conflict with the parties’ intent.
As a result, the entire Arbitration Agreement and MAP
are unenforceable. This is to be contrasted with what
Defendants label in reply as the controlling case. (Franco
v. Arkelian Enterprises (2015) 234 Cal.App.4th 947, 965.)
That case does not help Defendants. Unlike the instant
action, the plaintiff in Franco asserted both individual
and class causes of action for Labor Code violations in
addition to a representative PAGA cause of action. The
arbitration agreement there contained similar language
to the language here. The Court found that the waiver
was valid with respect to the class claims but invalid as
to his PAGA claim pursuant to Iskanian. (Id. at 960965.) The Court declined to find that entire arbitration
agreement invalid because there was no evidence that
the agreement was found to have been drafted to thwart
public policy. In this regard, the Court focused on the fact
that the arbitration agreement had been drafted almost

60a
Appendix E
ten years prior to Iskanian and was unable to conclude
that the employer could have predicted the final outcome of
Iskanian. (Id. at 965.) But here, there is no dispute that the
Arbitration Agreement which specifically stated that the
employee agrees to “forego any right to bring claims on
a representative or class basis” was presented to Plaintiff
on November 17, 2014. Iskanian was decided on June 23,
2014, almost five months earlier. Moreover, Franco did
not deal with the language discussed above in connection
with the agreements which specifically delineated the
circumstances under which severance was permitted.
In any event, even if the Court were to sever the provisions,
the PAGA action could not be ordered to arbitration
because as already discussed above, there is no intent
by the parties reflecting that PAGA actions should be
submitted to arbitration. Nor are there any claims other
than the single PAGA claim. Indeed, PAGA actions are
representative actions, whether brought by the LWDA or
by an individual employee. (Iskanian, supra, 59 Cal.4th at
387-388.) “In sum, the FAA aims to promote arbitration
of claims belonging to private parties to an arbitration. It
does not aim to promote arbitration of claims belonging
to a government agency, and that is no less true when
such a claim is brought by a statutorily designated
proxy for the agency as when the claim is brought by the
agency itself.” (Id. at 388.) Again, there are no individual
claims in this action, only a PAGA claim. This action is
brought by Plaintiff as a proxy of the State and the State
cannot be compelled to arbitrate any claim based on an
arbitration agreement between Plaintiff and Defendants.
Finally, the Court rejects any argument that Plaintiff

61a
Appendix E
has an “individual” PAGA claim that can be compelled to
arbitration while the “representative” portion of the PAGA
claim is stayed. Indeed, a “single cause of action under
PAGA cannot be spilt into an arbitrable ‘individual claim’
and a nonarbitrable representative claim.” (Williams v.
Superior Court (2015) 237 Cal.App.4th 642, 645.)
The Court also rejects Defendants’ argument that the
determination of arbitrability must be determined by the
arbitrator. The enforceability of an arbitration agreement
is ordinarily a question for the Court. However, the
parties may agree that the enforceability issue will be
delegated to the arbitrator. (AT&T Technologies, Inc.
v. Communications Workers (1986) 475 U.S. 643, 649.)
To establish this exception, it must be shown by “clear
and unmistakable” evidence that the parties intended
to delegate the issue to the arbitrator. (Rent-A-Center,
West, Inc. v. Jackson (2010) 561 U.S. 63, 68, 70, fn.1;
Howsam v. Dean Witter Reynolds (2002) 537 U.S. 79,
84; see, also Peleg v. Neiman-Marcus Group, Inc. (2012)
204 Cal. App. 4th 1425, 1439-1445.) Here Defendants
argue that such evidence exists because the Arbitration
Agreement/MAP incorporate the A A A rules which
themselves provide that the arbitrator has the power to
rule upon questions of arbitrability. It is true that many
cases have found that the incorporation of AAA rules
meets the heightened “clear and unmistakable” test.
(E.g., Rodriguez v. American Technologies, Inc. (2006)
136 Cal.App.4th 1100, 1123.) Plaintiff cites a single case
suggesting that incorporation is not necessarily sufficient
in the employment context. (Ajamian v. CantorCO2e,
L.P. (2012) 203 Cal.App.4th 771, 790-791.) However, the

62a
Appendix E
Court need not here consider whether incorporation alone
is sufficient. Indeed, even if the incorporation of AAA
rules alone were sufficient, the language of the specific
agreements here creates an ambiguity which renders
Defendants unable to meet the “clear and unmistakable”
standard. Indeed, the Arbitration Agreement states that
“if any provision of the MAP is found unenforceable, the
provision may be severed ... “ (Defendants’ Exh. 3.) The
MAP states that “the Arbitrator or a court may sever any
part of the MAP procedures that do not comport with the
[FAA] ... “ (Defendants’ Exh. 1, p.3, ¶ 3 [emphasis added].)
Thus, the agreements themselves indicate an intent that
the Court itself may decide questions of arbitrability, or
at a minimum create an ambiguity on that point. “As a
general matter, where one contractual provision indicates
that the enforceability of an arbitration provision is to be
decided by the arbitrator, but another provision indicates
that the court might also find provisions in the contract
to be unenforceable, there is no clear and unmistakable
delegation of authority to the arbitrator.” (Ajamian,
supra, 203 Cal.App.4th at 792.) As a result, the question
of arbitrability has not been clearly and unmistakably
delegated to the arbitrator.
The Court need not reach the separate argument of whether
the Arbitration Agreement/MAP is unconscionable given
the above.
The motion is denied.
Counsel for the prevailing party shall submit a formal
order. C.R.C. Rule 3.1312.

